No. 20In the

Supreme Court of the United States
50509 MARINE LLC, AMH GOVERNMENT
SERVICES, LLC, et al.,
Petitioners,
v.
PENSION BENEFIT GUARANTY CORPORATION,
Respondent.

On Petition for a Writ of Certiorari to the United
States Court of A ppeals for the Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Craig Tompkins
Craig Tompkins, PLLC
2269 Acorn Palm Road
Boca Raton, FL 33432
(561) 271-4868

Robert J. Hauser
Counsel of Record
Pankauski Hauser
Lazarus, PLLC
415 South Olive Avenue
West Palm Beach, FL 33401
(561) 514-0900
courtfilings@phflorida.com

Counsel for Petitioner

304381

A
(800) 274-3321 • (800) 359-6859

i
QUESTION PRESENTED
This case is about the lower courts’ failure to respect
stare decisis and unambiguous legislation. This petition is
made necessary because lower courts have now invented
new federal common law to evade this Court’s precedent
set by Chicago Title & Tr. Co. v. Forty-One Thirty-Six
Wilcox Bldg. Corp., 302 U.S. 120 (1937). The application
of Chicago Title combined with the plain language of
the relevant ERISA statutes required a result that
both the district and circuit court found undesirable.
Accordingly, the lower courts judicially altered the
existing enforcement schemes contained within the
“comprehensive and reticulated” ERISA legislation. Pet.
App. 8a–13a, 23a–25a. These alterations are irreconcilable
with state corporate law.
It is incontrovertible that under Illinois law, Liberty
Lighting Co., Inc. ceased to exist and its stock was
“destroyed” no later than 1997. Pet. App. 25a. Chicago
Title teaches that federal courts are powerless to change
that. 302 U.S. at 128–29. Yet both the district court and
the Eleventh Circuit have now held that, “under ERISA”
the corporation “still existed” and had stock that could
be owned, voted, and controlled in 2012. (Pet. App. 2a,
23a–24a). Accordingly, the Question Presented is:
Whether under Chicago Title & Tr. Co. v.
Forty-One Thirty-Six Wilcox Bldg. Corp., 302
U.S. 120 (1937) and the Tenth Amendment to
the United States Constitution, state law, not
ERISA or federal common law, controls the
questions of whether an Illinois corporation,
that after a Chapter 7 bankruptcy liquidation

ii
dissolved in 1992, and had its stock destroyed
in 1997 (1) still existed in 2012; and (2) had
stock that was still owned and “controlled”
with “voting rights” by the corporation’s 1992
shareholder in 2012?

iii
PARTIES TO THE PROCEEDING
Pursuant to Rule 14.1, Petitioners state the following:
Petitioners (defendants-appellants below) are 50509
Marine, LLC; American Marine Holdings, LLC; AMH
Government Services, LLC; Baja Marine, Inc.; Bedford
Materials Co., Inc.; Buffalo Power Electronics Center,
Inc.; Donzi Marine, LLC; Fountain Dealers Factory Super
Store, Inc.; Fountain Powerboat Industries, Inc.; Fountain
Powerboats, LLC; Liberty Acquisition FPB, LLC;
Liberty Analytical Corporation.; Liberty Associates, LC;
Liberty Polyglas, Inc.; Liberty Properties at Bedford,
LLC; Liberty Properties at Carey, LLC; Palmetto Park
Financial, LLC; Pro-Line Boats, LLC; and Pro-Line of
North Carolina, Inc.
Respondent is the Pension Benef it Guaranty
Corporation (plaintiff-appellee below) (“PBGC”).

iv
RULE 29.6 STATEMENT
The Petitioners are the above-named entities. None
of the Petitioner entities named to this proceeding is a
publicly held company. No publicly held company owns
10% or more of their stock.

v
RELATED PROCEEDINGS
• In re Buffalo Power Electronics Center, Inc., 21-11686MAM, U.S. Bankruptcy Court for the Southern District
of Florida. Petition for Bankruptcy filed February 22,
2021.
• Pension Benefit Guaranty Corp. v. 20 SE 3rd St LLC,
et al., 18-cv-81009, U.S. District Court for the Southern
District of Florida. Judgment entered Nov. 22, 2019.
• Pension Benefit Guaranty Corp. v. 50509 Marine,
LLC, AMH Government Services, LLC, et al. No. 1914968, U.S. Court of Appeals for the Eleventh Circuit.
Judgment Entered Nov. 24, 2020.

vi
TABLE OF CONTENTS
Page
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . i
PARTIES TO THE PROCEEDING . . . . . . . . . . . . . . .  iii
RULE 29.6 STATEMENT . . . . . . . . . . . . . . . . . . . . . . . . iv
RELATED PROCEEDINGS  . . . . . . . . . . . . . . . . . . . . . v
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . vi
TABLE OF APPENDICES . . . . . . . . . . . . . . . . . . . . .  viii
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . .  ix
PETITION FOR A WRIT OF CERTIORARI . . . . . . . 1
OPINIONS BELOW . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
JURISDICTION  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
RELEVANT STATUTORY PROVISIONS . . . . . . . . . . 2
INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . 5
REASONS FOR GRANTING THE PETITION . . . . 12
A. The Court should reaffirm Chicago Title
and its delegation to the states of control
over the existence and ownership of
state-created entities.  . . . . . . . . . . . . . . . . . . . . . 14

vii
Table of Contents
Page
B. Federal courts are not free to rewrite
a statute that relies on unambiguous
definitions with “federal common law.” . . . . . . . 18
C. Certiorari review is warranted to restore the
states’ constitutional authority to determine
and regulate the ownership and existence
of their own state-created entities.  . . . . . . . . . . 20
D. The underlying policy justification to
disregard state law, invent federal common
law, and deem the Plan Sponsor to exist
indefinitely despite state law depends on a
flawed premise. . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
1.

T he de c i sion e x p o s e s bu si ne s s
owners to indefinite liabilities for an
indefinite amount of time. . . . . . . . . . . . . . . 21

2.

ERISA already contemplates the
“missing Plan Sponsor” problem.  . . . . . . . 22

3.

PBGC already has remedies to prevent
a failure of succession of a Plan Sponsor
that do not inter fere w ith state
corporate law  . . . . . . . . . . . . . . . . . . . . . . . . 26

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

viii
TABLE OF APPENDICES
Page
APPENDIX A — OPINION OF THE UNITED
STAT ES COU RT OF A PPEA LS FOR
T H E ELE V EN T H CI RCU I T, FI LED
NOVEMBER 24, 2020  . . . . . . . . . . . . . . . . . . . . . . . . 1a
APPENDIX B — ORDER OF THE UNITED
STATES DISTRICT COURT FOR THE
SOUTHERN DISTRICT OF FLORIDA,
DATED NOVEMBER 22, 2019 . . . . . . . . . . . . . . . . 14a
APPENDIX C — DENIAL OF REHEARING
OF THE UNITED STATES COURT OF
APPEALS FOR THE ELEVENTH CIRCUIT,
FILED JANUARY 21, 2021  . . . . . . . . . . . . . . . . . . 37a
APPENDIX D — STATUTORY PROVISIONS . . . . 39a

ix
TABLE OF CITED AUTHORITIES
Page
Cases
Barnhart v. Sigmon Coal Co.,
534 U.S. 438 (2002) . . . . . . . . . . . . . . . . . . . . . . . . . . . 23
Burks v. Lasker,
441 U.S. 471 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 15
Burks v. Lasker,
441 U.S. 471 (1979)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Chicago Title & Tr. Co. v.
Forty-One Thirty-Six Wilcox Bldg. Corp.,
302 U.S. 120 (1937) . . . . . . . . . . . . . . . . . . . . . . . passim
Freedman v. magicJack Vocaltec Ltd.,
963 F.3d 1125 (11th Cir. 2020) . . . . . . . . . . . . . . . . . . 15
Great-W. Life & Annuity Ins. Co. v. Knudson,
534 U.S. 204 (2002) . . . . . . . . . . . . . . . . . . . . . . . . 22, 24
Horbach v. Kaczmarek,
915 F. Supp. 18 (N.D. Ill. 1996)  . . . . . . . . . . . . . . . . . 19
In re Peer Manor Bldg. Corp.,
134 F.2d 839 (7th Cir. 1943) . . . . . . . . . . . . . . . . . . . . . . 4
In re Peer Manor Bldg. Corp.,
134 F.2d 839 (7th Cir. 1943) . . . . . . . . . . . . . . 16, 18, 27

x
Cited Authorities
Page
In re Segno Comms.
264 B.R. 501, 510 (Bankr. N.D. Ill. 2001) . . . . . . . . .  17
Kamen v. Kemper Fin. Services, Inc.,
500 U.S. 90 (1991)  . . . . . . . . . . . . . . . . . . . . 4, 13, 14, 15
Marsh v. Rosenbloom,
499 F.3d 165 (2d Cir. 2007) . . . . . . . . . . . . . . . . . . . . . . 4
Massachusetts Mut. Life Ins. Co. v. Russell,
473 U.S. 134 (1985)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Mertens v. Hewitt Associates,
508 U.S. 248 (1993) . . . . . . . . . . . . . . . . . . . . . . . . 22, 23
Mich. Ind. Condo. Ass’n v.
Mich. Place, Ltd. Liab. Co.,
8 N.E.3d 1246 (Ill. App. 1st Dist. 2014)  . . . . . . . . 6, 17
Michigan Indiana Condominium Ass’n v.
Michigan Place, LLC,
8 N.E.3d 1246 (App. Ct. 1st Dist. 2014),
appeal denied, 20 N.E.3d 1256 (Ill. 2014)  . . . . . . . . 16
Nachman Corp. v.
Pension Benefit Guaranty Corporation,
446 U.S. 359 (1980) . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Nw. Airlines, Inc. v. Transp. Workers Union,
451 U.S. 77 (1981)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 23

xi
Cited Authorities
Page
PBGC v. Durango-Ga. Paper Co.,
2006 WL 3762085 (S.D. Ga. Dec. 20, 2006),
aff’d per curiam, 251 Fed. Appx. 664 (11th Cir.
Oct. 19, 2007) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27
PBGC v. FEL Corp.,
798 F. Supp. 239 (D.N.J. 1992) . . . . . . . . . . . . . . . 26, 27
PBGC v. Mize Co.,
987 F.2d 1059 (4th Cir. 1993) . . . . . . . . . . . . . . . . . . . 27
PBGC v. Mizrachi,
363 F. Supp. 3d 342 (E.D.N.Y. 2019) . . . . . . . . . . . . . 26
PBGC v. Republic Tech. Int’l, Inc.,
386 F.3d 659 (6th Cir. 2004) . . . . . . . . . . . . . . . . . . . . 27
PBGC v. The Renco Group,
13-cv-621 RJS, 2015 WL 997712,
(S.D.N.Y. Mar. 6, 2015) . . . . . . . . . . . . . . . . . . . . . . . . 27
PBGC v. White Consol. Indus.,
215 F.3d 407 (3d Cir. 2000) . . . . . . . . . . . . . . . . . . . . . 26
Pension Benefit Guar. Corp. v.
Findlay Industries, Inc., et al.,
902 F.3d 597 (6th Cir. 2018), pet. for cert.
dismissed sub nom. September Ends Co. v.
Pension Ben. Guar. Corp., 140 S. Ct. 16 (2019)  . 13, 26
Pielet v. Pielet,
978 N.E. 2d 1000 (Ill. 2012) (e.s.) . . . . . . . . . . . . . . . .  17

xii
Cited Authorities
Page
Shute v. Chambers,
492 N.E.2d 528 (Ill. App. 1st Dist. 1986) . . .  17, 19, 21
Teamsters Pension Trust Fund
of Philadelphia and Vicinity v.
Central Michigan Trucking, Inc.,
857 F.2d 1107 (6th Cir. 1988) . . . . . . . . . . . . . . . . . . . 23
United States v. Bestfoods,
524 U.S. 51 (1998)  . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
Statutes and Other Authorities
U.S. Const. Amend X . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14
26 U.S.C. § 1563  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 18
26 U.S.C. § 1563(a) . . . . . . . . . . . . . . . . . . . . . . . . . . passim
28 U.S.C. § 1259(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
29 U.S.C. § 1002(16)(A)  . . . . . . . . . . . . . . . . . . . . . . . . 2, 24
29 U.S.C. § 1002(16)(A)(iii)  . . . . . . . . . . . . . . . . . . . . . . . 24
29 U.S.C. § 1002(16)(B)  . . . . . . . . . . . . . . . . . . . . . . . . 2, 24
29 U.S.C. § 1301(a)(14)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
29 U.S.C. § 1301(a)(14)(B) . . . . . . . . . . . . . . . . . . . . . . . . . 15

xiii
Cited Authorities
Page
29 U.S.C. § 1303(e)(6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
29 U.S.C. § 1303(e)(6)(B)-(C) . . . . . . . . . . . . . . . . . . . . . . 27
29 U.S.C. § 1362  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 19
29 U.S.C. § 1369  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
29 U.S.C. § 1369(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
26 C.F.R. § 1.414(b)-1(a) . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
3 Am. Jur. Corporations § 412 (1938) . . . . . . . . . . . . . . . 21
19 Am. Jur., 2d Corporations § 2458 (2015) . . . . . . . . . . 16
26 CFR § 1.414(c)-2 . . . . . . . . . . . . . . . . . . . . . . . . . . passim
I l l . Ju r. BUSI N E S S R EL AT IONSH I P S
§ 10:53 (2019) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .  17
P B G C . g o v, R i s k Mi t i g a t i o n & E a r l y
War ning Program, available at https://
www.pbgc.gov/prac/risk-mitigation  . . . . . . . . . . . . . 26

1
PETITION FOR A WRIT OF CERTIORARI
Petitioners respectfully petition this Court to grant
certiorari review of the November 24, 2020 decision of the
United States Court of Appeals for the Eleventh Circuit.
OPINIONS BELOW
The November 24, 2020 court of appeals opinion,
Docket No. 19-14698 (Pet App. 1a) is published at 981 F.3d
927. The November 22, 2019 district court memorandum
decision [D.E. 158] in Case No. 18-CV-81009 (S.D. Fla.)
(Pet. App. 14a) is published at 424 F. Supp. 3d 1239.1
It resulted in a final judgment [D.E. 163] entered on
December 6, 2019.
JURISDICTION
Petitioners’ appeal was timely taken to the court of
appeals on December 11, 2019. [D.E. 164]. The judgment
of the court of appeals was entered on November 24,
2020. (Pet. App. 1a). On January 21, 2021, the court of
appeals denied Petitioners’ timely petition for rehearing
and rehearing en banc. (Pet. App. at 37a). On March 19,
2020, this Court extended the deadline for submission of
Petitions for Writs of Certiorari to 150 days. This Court
has jurisdiction pursuant to 28 U.S.C. § 1254(1) (allowing
review via “writ of certiorari granted upon the petition of
any party to any civil or criminal case . . .”).

1. Citations abbreviated “D.E.” refer to documents in the
record of Case No. 18-CV-81009 (S.D. Fla.) by their docket entry
(“ECF No.”) number.

2
RELEVANT STATUTORY PROVISIONS
Although Petitioners believe there is no ambiguity,
this matter may require the Court to construe 26 U.S.C.
§ 1563 (“Definitions and special rules”) (Pet. App.
39a–57a); 29 U.S.C. § 1002(16)(A) and (B) (definitions of
“Plan Administrator” and “Plan Sponsor”) (Pet. App.
57a–58a); 29 U.S.C. 1301(a)(14) (Definition of “controlled
group” and “common control”) (Pet. App. 59a–61a); 26
C.F.R. § 1.414(b)–1(a) (Definition of “controlled group of
corporations.”) (Pet. App. 62a–63a); and 26 CFR § 1.414(c)2 (defining “two or more trades or businesses under
common control.”) (Pet. App. 64a–72a).
INTRODUCTION
The lower courts disregarded the precedent set by
Chicago Title & Tr. Co. v. Forty-One Thirty-Six Wilcox
Bldg. Corp., 302 U.S. 120 (1937) and instead created new
federal common law “under ERISA.” The district court
declared that “someone must bear the cost,” without
appropriately considering that ERISA already provides
that insurer/guarantor PBGC would properly bear the
cost. (Pet. App. 16a).
The lower courts held that despite its 1997 statelaw extinction, Liberty Lighting Co., Inc. continued its
existence “for purposes of ERISA.” Id. 20a. Moreover,
they determined that an Illinois corporation could
continue to exist in perpetuity “under ERISA” regardless
of what result Illinois law requires outside of the ERISA
context. Id. 11a, n.2. Because it existed for ERISA
purposes—Illinois law notwithstanding—the district
court concluded that the corporation also still had stock

3
that was commonly owned with the Petitioners. Id. 20a.
As a consequence, these Petitioners were all held to exist
in a “controlled group” with Liberty Lighting Co., Inc. on
July 31, 2012. Id. 27a–33a.
The non-existent former Illinois corporation, Liberty
Lighting Co., Inc., was never a party to this dispute. Id.
24a–25a. Nonetheless, the district court found all the
Petitioners liable for Liberty Lighting’s alleged debts,
jointly and severally. An appeal followed to the Eleventh
Circuit.
In the Eleventh Circuit, Petitioners continued to
observe that the non-existent corporation, Liberty
Lighting Co., Inc., could not exist in a “controlled group”
with the Petitioners in 2012 under the plain language of
26 U.S.C. 1563(a) and/or the applicable Treasury Reg.
1.414(c)-2. Furthermore, under the language of 26 U.S.C.
1563(a) and 26 CFR 1.414(c)-2, entities must have stock
that was still actually owned by a common owner in order
to be in a “controlled group.” In order to be “owned” by
somebody, a corporation must exist and have stock. That
precondition to finding a controlled group was simply
missing here. The alleged owner had no enforceable or
usable legal ownership rights under state law. Petitioners
argued, therefore, that it was erroneous for the courts to
impute ownership and “voting rights” as liabilities under
federal law “for purposes of ERISA.” See, e.g., 26 CFR
1.414(c)-2 (finding “control” requires looking at “voting
rights”).
On de novo review, a three-judge panel of the Eleventh
Circuit affirmed the district court judgment. Pet. App. 1a.
After acknowledging that this was “a difficult case,” the

4
Court of Appeals reasoned that, “under ERISA,” Liberty
Lighting Co., Inc. still had a sufficient existence on July
31, 2012 to be the “federally defined” Plan Sponsor on that
date, triggering strict ERISA “controlled group” liability
for all of the Petitioners. Id. 2a (“existed” “under ERISA”),
5a (“difficult case”), 12a (finding that “Liberty remained
the Plan’s sponsor” and concluding that therefore the
Petitioners are liable without providing analysis of
whether there was sufficient common ownership to find a
“Controlled Group”).
The decision to disregard Illinois’ own rules of
corporate existence and ownership is in conflict with the
decisions of this Court and other circuits. See, e.g., Kamen
v. Kemper Fin. Services, Inc., 500 U.S. 90, 98–99 (1991)
(“‘Corporations,’ we emphasized, ‘are creatures of state
law’ . . . and it is state law which is the font of corporate
directors’ powers.”); Burks v. Lasker, 441 U.S. 471, 477–78
(1979) (“As we have said in the past, the first place one
must look to determine the powers of corporate directors
is in the relevant State’s corporation law.”); Chicago Title
& Tr. Co. v. Forty-One Thirty-Six Wilcox Bldg. Corp., 302
U.S. 120 (1937); In re Peer Manor Bldg. Corp., 134 F.2d
839, 840–41 (7th Cir. 1943) (relying on Chicago Title);
Freedman v. magicJack Vocaltec Ltd., 963 F.3d 1125,
1132 (11th Cir. 2020) (“corporate law is overwhelmingly
the province of the states”) (quoting Marsh v. Rosenbloom,
499 F.3d 165, 176 (2d Cir. 2007)).
Since at least the 1930s, federal courts have recognized
that business corporations are solely creatures of state law,
and that state law determines the existence, ownership,
and rights of control of such corporations even when
federal issues (such as the ability to file bankruptcy) are

5
at issue. Chicago Title, 302 U.S. 120. The decision below
expands the power of the federal government to an area
in which it has never before purported to exercise control.
STATEMENT OF THE CASE
Liberty Lighting Co., Inc. was the Plan Sponsor
and Plan Administrator of a pension plan known as
the “Liberty Lighting Co., Inc. Pension Plan for IBEW
Employees” (hereafter the “Plan” or “Pension Plan”). Pet.
App. 2a. Prior to the company’s demise, administrative
duties related to the Plan were dispatched by certain of
Liberty Lighting’s employees and/or third-party vendors.
See id. 10a (coloring these “administrative duties” as acts
taken by a “Plan Sponsor”). After the company’s demise,
much of the Plan’s administrative duties were carried
out by pension plan vendor “AON.” See App. Initial Br.
at 12–13 (Dec. 27, 2019) (11th. Cir. Docket No. 19-14698).
Due to the infiltration of Chinese-made electrical
goods into Liberty Lighting’s U.S. customer base, Liberty
Lighting ran into financial trouble no later than 1990. Id.
at 22.
Liberty Lighting Co., Inc. entered Chapter 7
bankruptcy, liquidated, and dissolved in the early 1990s.
Id. All of its assets (and therefore any potential earning
capacity) were surrendered to a secured creditor at that
time. Id. Liberty Lighting was administratively dissolved
by the State of Illinois in 1992. Id. Through these events,
Mr. Wortley (who had recently bought the company in
1989) lost both legal and de facto control and ownership
of the company; the company and its assets were in the
hands of its secured creditors and the bankruptcy trustee.

6
In 1993, Mr. Wortley filed a personal bankruptcy.
Id. at 23. That bankruptcy resulted in a discharge and
then a Final Decree in 1998. Id. In that bankruptcy
proceeding, all of Mr. Wortley’s personal assets were listed
on a schedule and surrendered to a bankruptcy trustee,
including 100% of the ownership of Liberty Lighting. Id.
Meanwhile, by operation of Illinois law, Liberty
Lighting ceased to exist and the stock was “destroyed”
no later than 1997, at which point Liberty Lighting’s
dissolution and windup period terminated. Shute v.
Chambers, 492 N.E.2d 528, 531 (Ill. App. 1st Dist. 1986)
(dissolution “destroys” the stock of a corporation); Mich.
Ind. Condo. Ass’n v. Mich. Place, Ltd. Liab. Co., 8 N.E.3d
1246, 1256 (Ill. App. 1st Dist. 2014) (discussing legal effect
of reaching the end of the windup period, and concluding
“the corporation ceases to exist altogether after the grace
period of five years”). As the district court correctly
recognized, “federal law respects the rights of states to
define corporate existence.” Pet. App. at 25a.
Many years later, in 2018, PBGC sued Petitioners
in the Southern District of Florida, creating Docket No.
19-14698. PBGC alleged that the Defendants were in a
“controlled group” with non-party Liberty Lighting Co.,
Inc. as of July 31, 2012 when the Pension Plan terminated.
PBGC therefore reasoned that Petitioners were strictly
liable under sections 1306(a), 1307 and 1362(a) for
pension benefits, premiums, interest, and penalties. (The
particulars of those claims are not at issue here; only
statutory “controlled group” liability vel non.)
PBGC initially justified the litigation by contending
that “Liberty Lighting did not notify or otherwise inform

7
PBGC of its commencement of bankruptcy, the reduction
in active Plan participants, its liquidation, or its dissolution
(collectively, the ‘Reportable Events’) for over twenty
years after it was required to . . . .” [D.E. 71 (Sec. Am.
Compl.) at ¶ 69]. As the litigation progressed, even PBGC
acknowledged that not only was this allegation irrelevant,
nobody knows if it is actually true. [See, e.g., D.E. 124 at
5–6; D.E. 140 at 8]. Too much time has passed.
In 1991, Liberty Lighting’s owner turned the company
over to a bankruptcy trustee and counsel for the bankrupt
debtor. [See D.E. 71 (Sec. Am. Compl.) at ¶ 67]. At that
point, the shareholder had no authority to act on behalf
of the bankrupt entity. Moreover, the bankruptcy was
subject to supervision by the United States Trustee,
which is a division of the U.S. Department of Justice. The
Petitioners are skeptical that PBGC remained ignorant
of Liberty Lighting’s failure for all of these years. When
pressed, PBGC conceded that whether or not it received
contemporaneous notice was irrelevant to PBGC’s claims.
[See, e.g., D.E. 124 at 5–6; D.E. 140 at 8]. Nonetheless,
PBGC’s unproven, and inarguably irrelevant, suggestion
of fault seemingly convinced the lower courts to make
this a deciding factor. See Pet App. at 6a (the notice
issue “looms large”); id. at 15a–16a, 25a (“an entity could
dissolve [and] not notify [PBGC] . . . . That is exactly what
is alleged to have happened in this case.”).
PBGC’s position required courts to accept that
Liberty Lighting Co., Inc. actually existed and had stock
that could be owned with voting rights in common with
the Petitioners until the date of plan termination in July
31, 2012. See 26 U.S.C. 1563(a); 26 CFR 1.414(c)-2. But
in reality, even though the Plan still existed in 2012,

8
the company had long ago been dissolved and its stock
destroyed by Illinois law.
There is no dispute that Mr. Wortley continued
to sign papers relating to the Plan’s administration,
notwithstanding the sponsor’s dissolution, for many
years. Various parties (such as AON, who was the vendor
administering the Plan and sending checks to pensioners,
and United Jersey Bank and its successors, who were the
trustees for the Plan from at least 1989 until 2012 when
the Plan terminated) represented to Mr. Wortley that
failure to do so would result in Liberty Lighting’s former
employees not receiving their benefits. See Pet. App. 10a.
(erroneously characterizing these activities as “Plan
Sponsor” activities, rather than “Plan Administrator”
activities). Wortley merely complied with the requests of
these Plan professionals.
In 2012, PBGC contacted Mr. Wortley. PBGC
sought Wortley’s help to “terminate” the Plan through a
settlement agreement without filing a federal lawsuit to
establish “Plan Termination.” See Pet. App. 3a.
Without objection from PBGC, Mr. Wortley signed
the parties’ final negotiated settlement agreement as
the “putative president” of Liberty Lighting Co., Inc.
Mr. Wortley used the term “putative” because he and his
counsel had repeatedly represented to PBGC that the
corporation no longer existed. See App. Initial Br. at 15–18
(Dec. 27, 2019) (11th. Cir. Docket No. 19-14698). PBGC
accepted the settlement agreement signed by the “putative
president”, thus acknowledging the non-existence of
Liberty Lighting Co., Inc., and ending the matter. See
Pet. App. 3a (“Wortley and PBGC eventually agreed to a

9
settlement that represented Liberty as having dissolved
in the ’90s and the agreement contained language that
Wortley believed established a final cutoff date for his
remaining liability . . . .”).
A s d iscussed above, PBGC had justi f ied its
commencement of this litigation on the grounds that it
was not notified of Liberty Lighting’s 1991 bankruptcy. To
that end, PBGC could have obtained the Liberty Lighting
bankruptcy court file to conclusively prove its allegation
that it was not served with notice of the bankruptcy when
it was filed. In 2012 and 2013, Wortley even offered to
bear the cost of having the entire bankruptcy file copied
for PBGC. PBGC represented to Wortley, however, that
obtaining the file was not necessary, and the bankruptcy
court file was coincidentally destroyed by the National
Archives while PBGC’s lawsuit was pending below. See
App. Initial Br. at 18–19, n.6 (Dec. 27, 2019) (11th. Cir.
Docket No. 19-14698).
Petitioners moved for summary judgment. The gist
of the summary judgment motion was that the named
defendants could not have been in a “controlled group”
with Liberty Lighting on July 31, 2012 because (1) Liberty
Lighting did not exist after 1997 under the controlling
Illinois state corporate laws; and (2) even if it existed,
it could not have been actually owned by Mr. Wortley
because his stock had been destroyed. [D.E. 112 at 4-9].
Therefore, under the plain terms of 26 U.S.C. 1563(a)
and 26 CFR 1.414(c)-2, the Petitioners could not be in a
controlled group with Liberty Lighting Co., Inc.
PBGC also moved for summary judgment. [D.E. 114].
In that motion, PBGC contended that the Petitioners were

10
in a “controlled group” as a matter of law with Liberty
Lighting Co., Inc. as of July 31, 2012; and invited the
district to make new federal common law adopting that
position. Id. at 3, 10. The district court accepted the
invitation, and gave Liberty Lighting Co., Inc. renewed
existence “under ERISA” 15 years after Illinois law had
permanently destroyed it. Pet. App. 23a–25a.
The district court granted summary judgment to
PBGC and denied summary judgment sought by the
Petitioners. Id. 35a. The district court agreed with the
Petitioners that Liberty Lighting ceased to exist under
state law. Id. 25a. The district court further agreed with
the Petitioners that federal law defers to the states to
define corporate existence. Id. (“Liberty Lighting ceased
to exist under state law and federal law respects the rights
of states to define corporate existence.”).
Nevertheless, the district court made a “narrow”
policy-based exception. Id. The district court declared that
“someone must bear the cost.” Id. 16a. As a result, it held
that Liberty Lighting Co., Inc. continued its existence and
wrote that “only for the purposes of a federal, ERISAfocused application . . . a state-law dissolution does not
disturb an entity’s federal, ERISA contributing sponsor
designation.” Id. 25a. Because the district court gave
Liberty Lighting existence for “ERISA purposes” in
2012—Illinois law notwithstanding—the district court
implicitly concluded that the corporation still had stock
that could be owned or transferred, and it was still owned
by Mr. Wortley in 2012. See Id.; 26 U.S.C. 1563(a); 26
CFR 1.414(c)-2. As a consequence, these Petitioners were
deemed by the court to be in a controlled group with
Liberty Lighting Co., Inc. as of July 31, 2012.

11
The district court decided that the expired Liberty
Lighting stock was deemed ‘abandoned’ back to Mr.
Wortley from his personal bankruptcy trustee in 1998.
Pet. App. at 26a. Therefore, the district court held that
Liberty Lighting was still owned by Mr. Wortley 14 years
later as of July 31, 2012. As a consequence, all of the
companies that he also owned on July 31, 2012 would be
jointly and severally liable for the entire claimed pension
premium liability, plus interest and penalties. Id. 28a–31a.
A final judgment resulted on December 6, 2019.
[D.E. 163]. Petitioners’ unsuccessful appeal to the court
of appeals was timely filed on December 11, 2019. [D.E.
164]; Pet. App. at 1a.
In the Eleventh Circuit, Petitioners contended that a
non-existent corporation under state law could not remain
in a “controlled group” under 26 U.S.C. 1563(a) and/or
the applicable Treasury Reg. 1.414(c)-2. Furthermore, 26
U.S.C. 1563(a) and 26 CFR 1.414(c)-2, clearly require the
existence of stock. The stock has to be actually owned by
a common owner in order to be in a “controlled group.”
Because Mr. Wortley had no enforceable or usable legal
ownership rights over Liberty Lighting Co., Inc. under
Illinois state law, nothing could actually be “abandoned”
from the bankruptcy. The federal courts could not
resurrect those rights and assign them to a former owner
without violating Chicago Title & Tr. Co. v. Forty-One
Thirty-Six Wilcox Bldg. Corp., 302 U.S. 120 (1937).
On de novo review, a three-judge panel of the Eleventh
Circuit affirmed. Although this was a “a difficult case,”
the Court of Appeals believed Liberty Lighting Co.,
Inc., still had a sufficient existence on July 31, 2012 to

12
be the “federally defined” Plan Sponsor on that date,
triggering strict ERISA “controlled group” liability
for the Petitioners. Pet App. at 5a, 7a. Rehearing and
rehearing en banc were denied. Id. at 37a-38a.
REASONS FOR GRANTING THE PETITION
Certiorari review is needed to restore the longunderstood meaning of Amendment X of the United
States Constitution and Chicago Title & Trust Co. v.
Forty-One Thirty-Six Wilcox Bldg. Corp., 302 U.S. 120,
127-28 (1937) (holding that “[h]ow long and upon what
terms a state-created corporation may continue to exist
is matter exclusively of state power. . . . And it hardly will
be claimed that the federal government may breathe life
into a corporate entity thus put to death by the state . . . .”).
Creative justification and application of federal common
law should not be used to evade this Court’s mandated
deference to state corporate laws.
The decisions below also conflict with this Court’s
repeated admonition that federal courts are not to
create federal common law to materially alter existing,
unambiguous federal statutes. Even when federal common
law rules are authorized, they are to be filled by adopting
state law principles absent clear congressional direction
to the contrary.
This Court has repeatedly been required to reign in
some federal courts’ desires to “improve” upon the work
of Congress and the common law by inventing new rules
and remedies never approved by any legislature. See, e.g.,
United States v. Bestfoods, 524 U.S. 51, 63 (1998) (stating
that “CERCLA is thus like many another congressional

13
enactment in giving no indication that the entire corpus
of state corporation law is to be replaced simply because a
plaintiff’s cause of action is based upon a federal statute,”
and “in order to abrogate a common-law principle, the
statute must speak directly to the question addressed by
the common law[.]”) (internal quotes omitted); Kamen
v. Kemper Fin. Servs., Inc., 500 U.S. 90, 98 (1991) (“The
presumption that state law should be incorporated into
federal common law is particularly strong in areas in
which private parties have entered legal relationships with
the expectation that their rights and obligations would be
governed by state-law standards.”).
The Court’s intervention is required again. The
decision below is part of a growing line of cases in which
federal courts of appeals have adopted principles of
liability that are hostile to business interests and far
exceed anything actually enacted or contemplated by
Congress’s ERISA statutory scheme. See, e.g., Pension
Benefit Guar. Corp. v. Findlay Industries, Inc., et al.,
902 F.3d 597, 609-13 (6th Cir. 2018) (when the facts of the
case fell outside of ERISA’s express statutory successor
liability provisions, i.e., 29 U.S.C. § 1369, the 6th Circuit
created liability by applying federal common law successor
liability), petition for cert. dimissed sub nom., September
Ends Co. v. Pension Ben. Guar. Corp., 140 S. Ct. 16
(2019); see also id. at 618 (McKeague, J., concurring and
dissenting) (“The [Defendant]s argue that 29 U.S.C.
§ 1369 enumerates the only circumstances where the
PBGC can impose Termination Liability on the successor
to a plan sponsor. The [Defendant]s are right.”). The Court
needs to signal that a reversal of this trend is required.

14
A. The Court should reaffirm Chicago Title and its
delegation to the states of control over the existence
and ownership of state-created entities.
Review is warranted so that the Question Presented
may be addressed and answered in the affirmative. One
important area of law traditionally regulated exclusively
by the states has long been the existence, termination, and
ownership of state-created business entities. Here, Illinois
law exclusively controls the question of when Liberty
Lighting Co., Inc. ceased to exist as a corporation, as well
as the question of whether it had outstanding, issued stock
capable of any private ownership and voting control.
“The powers not delegated to the United States
by the Constitution, nor prohibited by it to the
States, are reserved to the States respectively,
or to the people.”
U.S. Const. Amend X.
Only a state can determine whether a corporation
that it has created exists or terminates. See, e.g., Kamen
v. Kemper Fin. Services, Inc., 500 U.S. 90, 98–99 (1991).
Only a state can regulate who, if anyone, is entitled to own
or control it. Id. A well-developed, stable body of state
corporate law exists upon which American commerce
depends and relies. Id. at 98 (“The presumption that
state law should be incorporated into federal common law
is particularly strong in areas in which private parties
have entered legal relationships with the expectation that
their rights and obligations would be governed by statelaw standards.”). Federal law, in turn, builds on state
corporate law for various purposes. See, e.g., id. at 108

15
(reaffirming Burks v. Lasker, 441 U.S. 471 (1979)). The
Internal Revenue Code, in particular, builds upon and
relies on an existing body of state business organizations
law. And ERISA explicitly relies on definitions in the
Internal Revenue Code. E.g., 29 U.S.C. § 1301(a)(14)(B)
(ERISA definition and determination of a “controlled
group” requires using the “regulations prescribed for
similar purposes by the Secretary of the Treasury under
subsections (b) and (c) of section 414 of Title 26[.]”).
Accordingly, despite the seemingly limitless and everexpanding regulatory power of the federal government,
federal courts have historically been “powerless” to
“resurrect a corporation which a state has put out of
existence for all purposes.” Chicago Title & Trust Co.
v. Forty-One Thirty-Six Wilcox Bldg. Corp., 302 U.S.
120, 128 (1937)). “A corporation can only exist under the
express laws of the State by which it was created.” As a
result, “[h]ow long and upon what terms a state-created
corporation may continue to exist is matter exclusively
of state power. . . . And it hardly will be claimed that the
federal government may breathe life into a corporate
entity thus put to death by the state . . . .”. Id. at 127-28.
This rule was universally accepted, including by the
Eleventh Circuit and this Court. It is a “widely accepted”
and firmly established principle that “corporations . . . are
creatures of state law[.]” Freedman v. magicJack Vocaltec
Ltd., 963 F.3d 1125, 1133 (11th Cir. 2020) (quoting Kamen
v. Kemper Fin. Servs., 500 U.S. 90, 98 (1991)).
This Court’s decision in Chicago Title has never been
overruled, modified or limited, but the decisions below
have implicitly done so. In that Chicago Title decision,
by coincidence, this Court specifically examined Illinois

16
corporate law. 302 U.S. at 121. Chicago Title teaches
that Mr. Wortley, as the former shareholder or officer
of a dissolved entity, could not continue its existence or
even hire a lawyer for the entity, even if he had wanted
to continue its existence for purposes of remaining an
ERISA ‘plan sponsor’ or other corporate activity. In re
Peer Manor Bldg. Corp., 134 F.2d 839, 840 (7th Cir. 1943)
(relying on Chicago Title).
Illinois is a jurisdiction that treats corporate
dissolution the same as the death of a natural person after
a certain windup period. See 19 Am. Jur., 2d Corporations
§ 2458 (2015) (“A corporation considered a person also
can be considered living or dead, depending on whether it
remains in operation or instead has been dissolved. Under
some [state] statutes, the dissolution of a corporation is,
in legal effect, the same as the death of a natural person.”)
(emphasis added; footnotes omitted) (citing Michigan
Indiana Condominium Ass’n v. Michigan Place, LLC, 8
N.E.3d 1246 (App. Ct. 1st Dist. 2014), appeal denied, 20
N.E.3d 1256 (Ill. 2014). From the perspective of Illinois,
a former stockholder like Mr. Wortley could not take any
official action on behalf of the “dead” Liberty Lighting
entity. Id. It follows that a federal court should not assign
it a fictional ERISA Plan Sponsor existence. It could never
impute ownership authority or control to a former owner,
who was divested of such power, without encroaching
on state law and violating the precedent of this Court’s
Chicago Title decision. Peer Manor, 134 F.2d at 841 (“The
State of Illinois has the power of life and death over its
corporations. It says the corporation is dead. We know of
no [federal] rule of bankruptcy which has the power of
resurrection.”).

17
Illinois law itself remains completely clear. It has
been consistent since the early 20 th Century. See Ill.
Jur. BUSINESS RELATIONSHIPS § 10:53 (2019)
(“Dissolution of a corporation or a limited liability
company terminates its existence.”); In re Segno Comms.
264 B.R. 501, 508 (Bankr. N.D. Ill. 2001) (“The wind-up
period is limited in Illinois to five years, after which the
corporation ceases to exist.”); Mich. Ind. Condo. Ass’n v.
Mich. Place, Ltd. Liab. Co., 8 N.E.3d 1246, 1256 (Ill. App.
1st Dist. 2014) (discussing legal effect of reaching the end
of the windup period, and concluding “the corporation
ceases to exist altogether after the grace period of five
years”). Similarly, the Liberty Lighting Co., Inc. stock
no longer existed. In re Segno, at 508 (Bankr. N.D. Ill.
2001) (giving Illinois statutes their “plain and ordinary
meaning” and concluding: “The wind-up period is limited
in Illinois to five years, after which the corporation ceases
to exist.”); Shute v. Chambers, 492 N.E.2d 528, 531 (Ill.
App. 1st. Dist. 1986) (dissolution “destroys” the stock of
a corporation).
Most recently, the Illinois Supreme Court restated and
confirmed that “the five-year extension to a corporation’s
life granted by [805 Illinois Compiled Statutes 5/]
section 12.80 establishes a fixed endpoint beyond which
a corporation ceases to exist.” Pielet v. Pielet, 978 N.E.
2d 1000, 1008 n.3 (Ill. 2012) (e.s.). Accordingly, from the
perspective of the Illinois courts and the Illinois Secretary
of State, Liberty Lighting in fact ceased to exist no later
than the expiration of the five-year winding up period in
1997.
Moreover, even if Liberty Lighting Co., Inc. were
deemed arguendo to retain some theoretical ongoing
federal legal existence as a nominal Plan Sponsor for

18
purposes of ERISA, that is not the end of the “controlled
group” inquiry. Mr. Wortley was still without legal
authority to “control” or “own” any such entity after his
stock was dissolved no later than 1997. As explained below,
federal courts lacked authority to tell Mr. Wortley that he
“owned” stock that he absolutely could not own, control, or
transfer under Illinois law. Peer Manor, 134 F.2d at 84041 (debtor corporation was no longer in existence; it had
no power to exist for the purpose of being sued, to file an
answer through counsel, or to carry out reorganization).
B. Federal courts are not free to rewrite a statute that
relies on unambiguous definitions with “federal
common law.”
In Title 29, Congress specifically relied on concrete,
non-controversial state law concepts like “ownership”
and “stock.” To define concepts like a “controlled group,”
it referred to definitions that existed in the Internal
Revenue Code, Title 26. See 29 U.S.C. § 1301(a)(14); 26
U.S.C. §1563(a). For tax purposes, state law clearly exists
and defines and describes who “owns” a corporation
without ambiguity. State law also sets the parameters
for lawful issuance and actual control of shares of stock
in a corporation. State law also provides the backdrop for
federal statutes like 26 U.S.C. § 1563 that rest upon statedefined concepts like “nonvoting stock,” “treasury stock,”
“trusts,” “estates,” “spouse,” “children” “grandchildren,”
and “parents.” Congress has never tried to legislate these
matters anew for the states. Moreover, as a matter of
Congressional intent, there is no evidence that Congress
ever intended to overwrite state corporate laws on
ownership and control of state-created entities. There
was never any need to reinvent an established body of
reliable, workable law.

19
In the action below, PBGC’s claims depended entirely
upon the disputed premise that Joseph G. Wortley
still owned at least 80% of Liberty Lighting Co., Inc.’s
stock on July 31, 2012. This was simply not factually
correct. Mr. Wortley did not own the company, or any
shares of the stock. He had surrendered the stock to his
bankruptcy estate. No later than 1997 (and while he was
in bankruptcy), his surrendered stock was “destroyed”
under Illinois law. When Mr. Wortley emerged from
bankruptcy with a discharge in 1998, the stock could not
be “abandoned” back to him because the stock was gone.
Both the company and the stock were destroyed under the
governing Illinois law. Nobody owned it in 1998, or in 2012.
Controlled group status depends on ownership at
the time of plan termination. Pet. App. 21a, 27a (quoting
29 U.S.C. § 1362(a)). Here, Lighting’s stock remained
unowned and “destroyed” under state law and could not be
owned by anybody, including Joseph Wortley, long before
plan termination in 2012. Shute v. Chambers, 492 N.E.2d
528, 531 (Ill. App. 1st Dist. 1986) (dissolution “destroys”
the stock of a corporation); Horbach v. Kaczmarek, 915 F.
Supp. 18, 21 (N.D. Ill. 1996) (“When that five year ‘windup’ period expires, corporate property that has not been
disposed of automatically passes to the shareholders.”).
Without issued, outstanding corporate stock under
state law (and, significantly, legally recognizable voting
interests associated with that stock and held under
authority of state law by Mr. Wortley on July 31, 2012),
Mr. Wortley lacked the legal right under state law to
“control.” There could be no ERISA “controlled group.”
26 U.S.C. §1563(a) (determination of a controlled group
requires looking at contemporaneous stock ownership
and voting rights). Mr. Wortley’s continued ownership

20
of a minimum of 80% of the corporate stock under state
corporate law would be absolutely required to trigger the
federal “controlled group” statute. That required element
was simply missing here from PBGC’s case.
Through the holding below, the Eleventh Circuit
has now usurped Illinois’ exclusive constitutional
prerogative to define who owns and controls an Illinoiscreated corporation. See Chicago Title & Tr. Co., 302
U.S. at 124–25 (“the federal government is powerless to
resurrect a corporation”). Liberty Lighting Co., Inc. had
no outstanding stock as of 2012 according to the only entity
that ever allowed that stock to exist: Illinois. Because
Illinois law alone, not federal law, speaks clearly to that
issue, Liberty Lighting thereafter had no controlling
stockholder, even if a federal agency desires to call it a
“Plan Sponsor.”
C. Certiorari review is warranted to restore the states’
constitutional authority to determine and regulate
the ownership and existence of their own statecreated entities.
The Court should hear this case in order to restore
uniformity of decisions with Chicago Title and the entire
body of federal law that flowed from it. It should check
ever-encroaching federal power against the states. If
certiorari is granted, this Court can hold once and for
all that federal ERISA laws do not trample any state’s
own long-established rules for the (1) existence vel non
and (2) private ownership and governance and control of
corporations, upon which critical American commercial
interests rely every day.

21
The Court should halt the advance of invented “federal
common law” at the expense of the states, congressional
legislation, and the Tenth Amendment. Here, the new
rule announced by the Eleventh Circuit would extend
corporate life and impute stock ownership to otherwisepowerless, unwitting and helpless former owners in
conflict with state law. To be owned, Liberty Lighting Co.,
Inc. needed to exist and have stock that could be owned.
Under the plain meaning of 29 U.S.C. section 1563(a) and
Treasury Regulation 1.414(c)-2, it is impossible for anyone
to “own” 80% or more of a corporation that does not exist.
Instead, upon collapse of the corporate form, any assets of
the corporation are distributed to be owned thereafter by
the shareholders individually. See, e.g., Shute v. Chambers,
492 N.E.2d 528, 531 (Ill. App. 1st Dist. 1986) (citing 3 Am.
Jur. Corporations § 412, at 465 (1938)). But here, there
were no assets. Everything was seized by the creditors.
D. The underlying policy justification to disregard
state law, invent federal common law, and deem the
Plan Sponsor to exist indefinitely despite state law
depends on a flawed premise.
1.

The decision exposes business owners to
indefinite liabilities for an indefinite amount
of time.

There are other logical and practical reasons to review
the Eleventh Circuit’s decision. It held that the Liberty
Lighting ERISA Plan Sponsor continued to nominally
exist and remained owned and controlled by its former
shareholder beyond its dissolution for twenty years (from
1992 to 2012). As inherently extreme and unreasonable
as that may sound, it is not even the outer limit of the

22
holding. Under the exact same reasoning, and that of the
district court, a long-dissolved corporation could actually
remain in ERISA limbo, and its former owners still
deemed to own the stock in perpetuity, and for as long as
no successor plan sponsor existed. That could be decades
or even centuries. That is not a reasonable or predictable
result. Rather, the result is needlessly hostile to business
interests that rely on everyday state law concepts of
“dissolution,” “windup” and “ownership.” In Illinois, for
example, when a dissolution and windup period concludes
after five years, business owners should have confidence
that—absent specific statutory exceptions or intentional
fraud—corporate existence is actually extinguished.
2.

ERISA already contemplates the “missing
Plan Sponsor” problem.

This Court has observed “repeatedly that ERISA is
a ‘comprehensive and reticulated statute,’ the product of
a decade of congressional study of the Nation’s private
employee benefit system.” Great-W. Life & Annuity
Ins. Co. v. Knudson, 534 U.S. 204, 209 (2002) (quoting
Mertens v. Hewitt Associates, 508 U.S. 248, 251 (1993)
and Nachman Corp. v. Pension Benefit Guaranty
Corporation, 446 U.S. 359, 361 (1980)). Therefore, this
Court has “been especially ‘reluctant to tamper with [the]
enforcement scheme’ embodied in the statute by extending
remedies not specifically authorized by its text.” Id.
(quoting Massachusetts Mut. Life Ins. Co. v. Russell, 473
U.S. 134, 147 (1985)). This is because “ERISA’s carefully
crafted and detailed enforcement scheme provides strong
evidence that Congress did not intend to authorize other
remedies that it simply forgot to incorporate expressly.”
Id. (internal quotes omitted). Outside of the ERISA

23
context, this Court has similarly cautioned courts not
to “fashion new remedies that might upset carefully
considered legislative programs.” Nw. Airlines, Inc. v.
Transp. Workers Union, 451 U.S. 77, 97 (1981).
These rules restricting a federal court’s power to make
federal common law apply even if the policies underlying
the statute seem to favor the requested remedy. “This
is especially true with legislation such as ERISA, an
enormously complex and detailed statute that resolved
innumerable disputes between powerful competing
interests—not all in favor of potential plaintiffs.” Mertens
v. Hewitt Associates, 508 U.S. 248, 262 (1993). When
analyzing the ERISA “statutory scheme as a whole:
‘There is no congressional mandate to engage in legal
gymnastics in order to guarantee pension plans at all
costs.’” Teamsters Pension Trust Fund of Philadelphia
and Vicinity v. Central Michigan Trucking, Inc., 857 F.2d
1107, 1109 (6th Cir. 1988) (quoting District Judge Wendell
A. Miles). It was therefore inappropriate for PBGC to ask
the courts to create new remedies to fit this case. See,
e.g., Barnhart v. Sigmon Coal Co., 534 U.S. 438, 461-62
(2002) (“We will not alter the text in order to satisfy the
policy preferences of the Commissioner. These are battles
that should be fought among the political branches and
the industry. Those parties should not seek to amend the
statute by appeal to the Judicial Branch.”).
Worse yet, the ultimate decision to override longestablished state law with a “narrowly crafted” new federal
common law rule rested on an erroneous and unnecessary
policy justification that was premised on a confusion
of ERISA’s definitions. See Pet. App. 10a–11a. The
Eleventh Circuit wrote that an ERISA Plan’s “continuing

24
maintenance—can only have been undertaken by the
Plan’s sponsor.” Id. 10a. Respectfully, that is not correct.
ERISA relies on carefully defined terms arising from “a
decade of congressional study.” Knudson, 534 U.S. at 209.
An ERISA “Plan Administrator” was responsible for
continuing maintenance. See 29 U.S.C. § 1002(16)(A). As
this case proves, a “Plan Sponsor,” in contrast, is merely
the founder and contributor for the Plan. See 29 U.S.C.
§ 1002(16)(B). A Plan Sponsor may stop functioning. A
sole proprietor/Plan Sponsor may die. An entity sponsor
may be dissolved (voluntarily or involuntarily), go into
receivership, go bankrupt, or simply stop operating.
Nothing can stop these normal events of business life.
That is why a “Plan Administrator” is still actually
and legally responsible for maintaining the plan. Once
the Panel Opinion commingled the defined terms “Plan
Sponsor” with “Plan Administrator,” these Petitioners
were prejudiced.
Congress did not inadvertently leave room for
ERISA to fall into chaos if a Plan suddenly lacked a Plan
Sponsor. Rather, in the definition of “Plan Administrator,”
ERISA affirms that “in the case of a plan for which an
administrator is not designated and a plan sponsor
cannot be identified, [the Plan Administrator is] such
other person as the Secretary [of Labor] may by regulation
prescribe.” 29 U.S.C. §1002(16)(A)(iii) (e.s.). Obviously,
the default situation in which “a plan sponsor cannot be
identified” was foreseen. The scheme created by Congress’
choice of words in the statute did not need the federal
court system’s further assistance. A Plan Administrator,
not the Plan Sponsor, exists to ensure continuity of plan
operation.

25
If the Plan Administrator failed as a fiduciary,
there are remedies, addressed below. If information is
intentionally withheld or concealed from PBGC, there are
very specific remedies. Those issues were never litigated
or explored in this case; they were neither applicable
nor relevant. This was a strict liability, Plan Sponsor
“controlled group” case, never a claim asserted against
a Plan Administrator or fiduciary for its alleged faults,
failures or non-feasance. While the PBGC and the lower
courts all offered suggestive commentary to justify their
erroneous positions, actual fault was not litigated, because
it was not relevant to the underlying claims.
Accordingly, ERISA is not “silent” when a Plan
Sponsor ceases to exist. The statutory scheme does not
fall apart. Congress considered the issue. There was no
need to tamper with ERISA’s enforcement scheme in this
manner. If there were actually “uncertainty in ERISA
law” then this same problem would be expected to have
arisen repeatedly in the past. Over decades, Congress and
the Secretary of Labor were authorized to address the
continuity issue if it were a concern. Even the Eleventh
Circuit agreed that “it is ERISA . . . that determines the
identity of a plan’s sponsor in a situation such as this.”
In light of the foregoing, the Court should grant
review. The Eleventh Circuit’s decision should be quashed
in favor of the plain language of the statute and with due
deference to the state law that dictates the existence and
ownership of corporations. There is no gap in ERISA that
needed to be filled.

26
3.

PBGC already has remedies to prevent a failure
of succession of a Plan Sponsor that do not
interfere with state corporate law.

ERISA a l ready prov ides the PBGC w ith an
extraordinary toolbox of remedies to prevent a failure
of succession of a Plan Sponsor. The situation is referred
to as a “controlled group breakup.” See Pension Benefit
Guaranty Corp. v. FEL Corp., 798 F. Supp. 239 (D. N.J.
1992); see also PBGC.gov, Risk Mitigation & Early
Warning Program, available at https://www.pbgc.gov/
prac/risk-mitigation (using the term “controlled group
breakup”). The Eleventh Circuit was incorrect when it
concluded that “ERISA [does not] tell[] us what to do
with pension liabilities when the sponsor of a plan has
dissolved but the plan has continued to operate.” (Pet
App. 8a). Congress has directed PBGC exactly what to
do. PBGC’s “toolbox” includes:
i.) The ability to disregard transactions made to
“evade” ERISA liabilities;2
ii.) Fiduciary duty lawsuits with alternate statutes of
limitations;3

2. 29 U.S.C. §1369(a); PBGC v. White Consol. Indus., 215
F.3d 407 (3d Cir. 2000); Pension Benefit Guar. Corp. v. Findlay
Industries, Inc., et al., 902 F.3d 597 (6th Cir. 2018), pet. for cert.
dismissed sub nom. September Ends Co. v. Pension Ben. Guar.
Corp., 140 S. Ct. 16 (2019).
3. 29 U.S.C. §1303(e)(6); PBGC v. Mizrachi, 363 F. Supp. 3d
342 (E.D.N.Y. 2019).

27
iii.) Extended statutes of limitations in cases of fraud
and concealment;4
iv.) The ability to bring any and all state law causes
of action;5 and
v.) The benefit of hindsight and nearly unfettered
deference when choosi ng a Dat e of Pla n
Termination.6
The real purpose of ERISA’s Controlled Group
provisions is to prevent a Plan Sponsor from “funneling
its assets into other entities it owns” before going out of
business. See, e.g., (Pet App. 8a). That was never alleged
to have happened here. Liberty Lighting simply went
out of business, liquidated in a Chapter 7 bankruptcy,
and was a dead and inactive entity for twenty years. No
other co-owned entities are alleged to have taken on its
assets or business. Mr. Wortley had no right to control
or operate it, as the Seventh Circuit has previously held
(applying Illinois law). In re Peer Manor Bldg. Corp., 134
F.2d 839 (7th Cir. 1943) (relying on Chicago Title). Mr.
Wortley could not even hire a lawyer to represent Liberty
Lighting. See id. Accordingly, the corporate existence and
stock ownership rules invented by the Eleventh Circuit
4. 29 U.S.C. §1303(e)(6)(B)-(C).
5. PBGC v. The Renco Group, 13-CV-621 RJS, 2015 WL
997712, (S.D.N.Y. Mar. 6, 2015).
6. PBGC v. FEL Corp., 798 F. Supp. 239 (D.N.J. 1992); PBGC
v. Republic Tech. Int’l, Inc., 386 F.3d 659 (6th Cir. 2004); PBGC
v. Mize Co., 987 F.2d 1059 (4th Cir. 1993); PBGC v. Durango-Ga.
Paper Co., 2006 WL 3762085 (S.D. Ga. Dec. 20, 2006), aff’d per
curiam, 251 Fed. Appx. 664 (11th Cir. Oct. 19, 2007).

28
for this case are not only offensive to state law, but also
create a new ERISA remedy for a wrong that did not
actually occur here.
CONCLUSION
For the foregoing reasons, the petition for a writ of
certiorari should be granted.
Respectfully submitted,
Robert J. Hauser
Counsel of Record
Pankauski Hauser
Lazarus, PLLC
415 South Olive Avenue
West Palm Beach, FL 33401
(561) 514-0900
courtfilings@phflorida.com
Craig Tompkins
Craig Tompkins, PLLC
2269 Acorn Palm Road
Boca Raton, FL 33432
(561) 271-4868
Counsel for Petitioner
May 25, 2021

APPENDIX

1a
Appendix A — Appendix
opinionAof the united
states court of appeals FOR THE
ELEVENTH CIRCUIT, FILED
NOVEMBER 24, 2020
United States Court of Appeals
for the Eleventh Circuit
No. 19-14968
PENSION BENEFIT GUARANTY CORPORATION,
Plaintiff-Appellee,
versus
50509 MARINE LLC, AMH GOVERNMENT
SERVICES, LLC, et al.,
Defendants-Appellants.
Appeal from the United States District Court
for the Southern District of Florida.
November 24, 2020, Decided
November 24, 2020, Filed
Before MARTIN, ROSENBAUM, and TALLMAN,*
Circuit Judges.

The Honorable Richard C. Tallman, Circuit Judge for the
United States Court of Appeals for the Ninth Circuit, sitting by
designation.
*

2a
Appendix A
TALLMAN, Circuit Judge:
From the confluence of bankruptcy, employee benefits,
and corporations law comes this most unusual case. The
answer to a seemingly simple but surprisingly complex
question controls our disposition: Did the Liberty Lighting
Company exist in July 2012? Liberty was an Illinois
corporation that went bankrupt and dissolved under state
law in the 1990s. But if it nevertheless continued with the
assistance of its sole stockholder owner as the sponsor of
a pension plan under the federal Employee Retirement
Income Security Act (ERISA), then federal law dictates
that other companies owned by Liberty’s owner may be
held liable for the unfunded liability, which was paid by
the government agency known as the Pension Benefit
Guaranty Corporation (PBGC), when the plan ran out of
funds. Those companies—the appellants in this action—
protest that they cannot be considered owned in common
with Liberty for the simple reason that Liberty ceased
to exist long ago. We disagree. Concluding that, in the
unusual circumstances of this case, Liberty still existed in
2012 sufficiently to act as the plan’s sponsor under ERISA,
we affirm the district court.
I
Joseph Wortley owned Liberty Lighting Co., Inc.
(“Liberty”), a unionized electrical supply manufacturing
company based near Chicago in the late 1980s. Prior to
its ultimate dissolution, Liberty was the plan sponsor and
administrator of the “Liberty Lighting Co., Inc. Pension
Plan for IBEW Employees” (the “Plan”) under Title

3a
Appendix A
IV of ERISA, 29 U.S.C. § 1301 et seq. Liberty ran into
financial trouble in the early ’90s, entered bankruptcy
and surrendered its assets to a creditor in 1992, and was
thereafter administratively dissolved under state law.
Wortley, Liberty’s sole owner with 100% of the company’s
stock, soon followed with his own personal bankruptcy
in 1993, from which he was discharged in 1998. As part
of the bankruptcy proceedings, all of Wortley’s assets
were surrendered to a trustee, including his stock in
Liberty. Meanwhile, Wortley continued to act as the Plan’s
administrator, signing papers on behalf of the Plan at the
request of the Plan’s actuary for years after Liberty’s
purported dissolution. These signatures were necessary
to effect continuing payments to pensioners.
In 2012, as the Plan’s funds ran low, the bank
administering the Plan notified PBGC of the Plan’s
looming insolvency. PBGC, as the federal agency charged
with protecting the retirement incomes of workers in
private-sector defined benefit pension plans, contacted
Wortley to reach a settlement regarding the unfunded
remaining liability of the Plan. Wortley and PBGC
eventually agreed to a settlement that represented
Liberty as having dissolved in the ’90s and the agreement
contained language that Wortley believed established a
final cutoff date for his remaining liability by conveying
“any and all powers, authority, et[] cetera, that [Wortley]
may have on behalf of Liberty [] and/or the Plan to PBGC”
on July 31, 2012.
But six years later, PBGC brought suit against these
19 appellants (“the Companies”) in the United States

4a
Appendix A
District Court for the Southern District of Florida,
alleging that they, as other companies owned by Wortley,
were nonetheless part of a “controlled group” with
Liberty, and therefore were still liable for Liberty’s unpaid
pension benefits, premiums, interest, and penalties under
29 U.S.C. §§ 1306(a)(7), 1307, and 1362(a). PBGC’s theory
of the case under ERISA is simple: with Liberty unable
to meet its ERISA obligations to its former employees,
Wortley’s other companies must foot the bill. See id.
§ 1307(e)(2).
After denying the Companies’ motion to dismiss,
the district court granted summary judgment to PBGC
on November 22, 2019. The court based its finding on
several alternate grounds: (1) ERISA makes Liberty the
contributing sponsor of the Plan, and no operation of state
law can change that; (2) courts are authorized to make
“federal common law” in pursuit of ERISA’s scheme and
goals, and finding that Liberty was the sponsor would
further ERISA’s central goal of protecting the interests
of pension beneficiaries; and (3) Illinois law allows a
dissolved company “to carry on in a manner necessary
to wind up its affairs,” so Liberty was able to continue in
existence after ceasing business operations in order to
meet its obligations under the Plan. The court reasoned
that under the Companies’ view of ERISA, “nobody was
responsible for the pension plan,” a result that “cannot be
squared with ERISA as a whole,” which “does not allow
pension plans to exist in a state of limbo, devoid of any
caretaker.” Final judgment was entered on December 6,
2019, and the Companies timely appealed.

5a
Appendix A
II
The district court had federal-question jurisdiction
under 28 U.S.C. § 1331, and we have appellate jurisdiction
under § 1291.
We review the granting of summary judgment de
novo, viewing all facts in the light most favorable to the
nonmoving party. See Nesbitt v. Candler Cnty., 945 F.3d
1355, 1357 (11th Cir. 2020). Summary judgment is proper
only “if the movant shows that there is no genuine dispute
as to any material fact and the movant is entitled to
judgment as a matter of law.” Fed. R. Civ. P. 56(a).
III
This is, as the district court wrote in its summaryjudgment order, “a difficult case.” It comes down to what
seems on the surface an easy question: On July 31, 2012,
was Liberty the “contributing sponsor” of the “Liberty
Lighting Co., Inc. Pension Plan for IBEW Employees”
under Title IV of ERISA?1 If it was—and if Joseph Wortley
was its owner—then the companies sued by PBGC are
responsible for the so-called termination liabilities: the
Plan’s shortfall, plus premiums, penalties, and interest
associated with the Plan, totaling approximately $6.2
million. 29 U.S.C. §§ 1362(b), 1306(a), 1307(c), 1307(d).
1. The Companies do not deny that Liberty was the Plan’s
sponsor before Liberty’s dissolution. And no one questions that
Wortley owns the requisite percentage of the stock of the 19
companies seeking to avoid Liberty’s unfunded pension plan liability.

6a
Appendix A
But asking that seemingly easy question triggers
several others: What was the effect of Liberty’s 1992
bankruptcy on its status as the Plan’s sponsor? Does
it matter that Wortley—sometimes using Liberty
letterhead—continued to sign the forms authorizing
payment to the pensioners? If Liberty wasn’t the Plan’s
sponsor, who was? Answering them is made more difficult
by an important omission: the record does not show
whether Liberty reported its bankruptcy, liquidation,
and dissolution to PBGC, as it was required to do under
ERISA. As a result, two decades passed between
Liberty’s filing for bankruptcy and the agreement that
terminated the Plan. That delay, and the unfortunate
destruction of the old bankruptcy court files under the
judiciary’s records retention policies, looms large as we
search for answers and grapple with this case’s unique
circumstances.
A
We begin by noting that, while the district court
provided three reasons for its decision, “we may affirm
on any ground that finds support in the record.” Long
v. Comm’r, 772 F.3d 670, 675 (11th Cir. 2014) (citation
omitted). Both ERISA and Illinois law provide relevant
clues to solving the mystery of Liberty’s existence and
corporate demise.
1
Liber ty was an Illinois cor poration; Illinois
corporations law thus lays the groundwork for its

7a
Appendix A
corporate status. See Freedman v. magicJack Vocaltec
Ltd., 963 F.3d 1125, 1133 (11th Cir. 2020) (“[C]orporations
. . . are creatures of state law . . . .” (quoting Kamen v.
Kemper Fin. Servs., 500 U.S. 90, 98, 111 S. Ct. 1711, 114
L. Ed. 2d 152 (1991))) . Dissolution “terminates [an Illinois
corporation’s] existence” and “a dissolved corporation shall
not thereafter carry on any business,” except wind-up and
liquidation. 805 Ill. Comp. Stat. 5/12.30(a). At common
law, a corporation could no longer sue or be sued after
its dissolution. See Henderson-Smith & Assocs., Inc. v.
Nahamani Family Serv. Ctr., 323 Ill. App. 3d 15, 752
N.E.2d 33, 37, 256 Ill. Dec. 488 (Ill. App. Ct. 2001). But
like most jurisdictions, Illinois has modified that rule by
statute, allowing a corporation to live on for another five
years beyond its dissolution. 805 Ill. Comp. Stat. 5/12.80.
See also Mich. Ind. Condo. Ass’n v. Mich. Place, LLC,
2014 IL App (1st) 123764, 380 Ill. Dec. 704, 8 N.E.3d
1246, 1250 (Ill. App. Ct. 2014) (“Section 12.80 extends the
life of the corporation after its dissolution so that suits
which normally would have abated may be brought by and
against the corporation.” (cleaned up)).
The parties sharply disagree about section 12.80’s
effect on a corporation’s ability to serve as a contributing
sponsor under ERISA. The Companies maintain that
a corporation ceases existence for all purposes after
the five-year period, while PBGC argues the statutory
death a corporation suffers five years after its dissolution
affects only the company’s ability to sue and be sued, and
has no effect on its federally defined role as an ERISA
contributing sponsor. The Companies rely heavily on dicta
from Illinois state cases to support their position. See, e.g.,

8a
Appendix A
Pielet v. Pielet, 2012 IL 112064, 978 N.E.2d 1000, 1008 n.3,
365 Ill. Dec. 497 (Ill. 2012) (“[T]he five-year extension to
a corporation’s life granted by section 12.80 establishes
a fixed endpoint beyond which a corporation ceases to
exist. After that point, it may no longer sue or be sued.”
(emphasis added)).
But Illinois courts have not always given section 12.80
such a rigid reading. See, e.g., Moore By and Through
Moore v. Nick’s Finer Foods, Inc., 121 Ill. App. 3d 923,
460 N.E.2d 420, 421, 77 Ill. Dec. 364 (Ill. App. Ct. 1984)
(holding a dissolved corporation liable outside the thentwo-year dissolution period and noting “that the two-year
limitation on corporate survival is not absolute, and may
be extended under certain circumstances”). Moore is
flatly inconsistent with the Companies’ construction of
section 12.80. And besides, Pielet’s discussion of Illinois’s
corporate-survival statute is primarily focused on whether
a dissolved corporation may sue or be sued. Whether or
not Illinois law would allow Liberty to sue or be sued is
not the question here; rather, we must ask instead whether
Liberty had the capacity to serve as the Plan’s ERISA
sponsor up until 2012. That is a question of federal law, and
one to which Illinois corporations law provides no answer.
B
Neither ERISA nor Illinois law tells us what to do with
pension liabilities when the sponsor of a plan has dissolved
but the plan has continued to operate. Where ERISA is
silent, we are required “to develop a ‘federal common law
of rights and obligations under ERISA-regulated plans.’”

9a
Appendix A
Arnold v. Life Ins. Co. of N. Am., 894 F.2d 1566, 1567
(11th Cir. 1990) (citing Firestone Tire & Rubber Co. v.
Bruch, 489 U.S. 101, 109, 109 S. Ct. 948, 103 L. Ed. 2d 80
(1989)). In deciding whether a rule should “become part of
ERISA’s common law,” we must decide “whether the rule,
if adopted, would further ERISA’s scheme and goals,”
which are “(1) protection of the interests of employees
and their beneficiaries in employee benefit plans . . . and
(2) uniformity in the administration of employee benefit
plans.” Horton v. Reliance Standard Life Ins. Co., 141 F.3d
1038, 1041 (11th Cir. 1998) (per curiam) (citations omitted).
See also Bd. of Trs. of W. Conf. of Teamsters Pension Tr.
Fund v. H.F. Johnson Inc., 830 F.2d 1009, 1014 (9th Cir.
1987) (relying on Congress’s command to use “Federal
substantive law” to fill in statutory gaps).
Mindful that this power to create rules that fit
ERISA’s purposes is to be wielded carefully and narrowly,
we exercise it here. 29 U.S.C. § 1307(e)(2) establishes
liability for the “controlled group” of a plan sponsor—that
is, other entities “under common control with” the sponsor.
29 U.S.C. § 1301(a)(14)(A). The purpose and effect of this
provision is plain: the sponsor of a defunct pension plan
cannot be allowed to funnel its assets into other entities
it owns, and then leave PBGC holding the bag for the
plan’s continuing liabilities. If a sponsor is on the hook
for unfunded pension liabilities, then every other entity
sharing a specified percentage ownership interest in
common (here through Wortley) is also on the hook, jointly
and severally. 29 U.S.C. § 1307(e)(2); see also DurangoGeorgia Paper Co. v. H.G. Estate, LLC, 739 F.3d 1263,
1266 (11th Cir. 2014) (“In the event that the contributing

10a
Appendix A
sponsor can no longer pay benefits when they are due,
the PBGC is authorized to terminate the plan . . . and to
demand that the contributing sponsor and the members
of the controlled group provide for the unfunded benefit
liabilities.” (internal citations omitted)). Joseph Wortley
owned Liberty, and Joseph Wortley owns the Companies;
there is no dispute about that.
Further, Wortley’s actions on behalf of Liberty after
its purported dissolution constitute strong evidence
that Liberty continued to serve as the Plan’s sponsor de
facto, whatever its technical status under Illinois law. For
years after its dissolution, Liberty—through Wortley—
continued to authorize payments out of the Plan. Liberty
played an active role in the Plan years after its bankruptcy;
most notably, Wortley filed with the government and the
bank that held the assets in 2002 and 2004 ERISA forms
that identified Liberty as the Plan’s sponsor. And Wortley
sent a letter to the Plan’s actuary on Liberty letterhead
inquiring about benefit entitlements. These steps—
necessary to the Plan’s continuing maintenance—can only
have been undertaken by the Plan’s sponsor.
With all this in mind, we follow the Supreme Court’s
instruction to fill in ERISA’s gaps with common-law rules,
see Firestone, 489 U.S. at 109, and we hold that where the
sponsor of an ERISA plan dissolves under state law but
continues to authorize payments to beneficiaries and is
not supplanted as the plan’s sponsor by another entity, it
remains the constructive sponsor such that other members
of its controlled group may be held liable for the plan’s
termination liabilities. Under the narrow rule we craft

11a
Appendix A
here, the Companies are liable to PBGC for the Plan’s
termination liabilities for the simple reason that Liberty
persisted as the Plan’s sponsor even as it dissolved as an
Illinois corporation.
This rule “further[s] ERISA’s scheme and goals”
by “protecting . . . the interests of employees and their
beneficiaries in employee benefit plans”—it ensures
that a plan such as this does not go without a sponsor—
and it promotes “uniformity in the administration of
employee benefit plans” by clarifying that disparate state
corporations laws are not the sole factor in determining a
sponsor’s identity. Horton, 141 F.3d at 1041. By contrast,
giving credence to the Companies’ overly broad view of
Illinois law would mean leaving the government agency
to pick up the Plan’s tab rather than first exhausting any
funds that might be kept in Wortley’s other entities, and
it would make the definition of sponsor entirely dependent
on state laws that may differ widely on a corporation’s
post-dissolution status. 2
The Companies claim that Liberty cannot have been
the Plan’s sponsor, but they provide no possible alternative
2. To be sure, we do not hold that ERISA preempts Illinois
corporations law. See Graham v. R.J. Reynolds Tobacco Co., 782 F.3d
1261, 1275 (11th Cir. 2015) (the “presumption against preemption”
means “the historic police powers of the States were not to be
superseded by [federal law] unless that was the clear and manifest
purpose of Congress” (citation omitted) (alteration in original)
(overruled on other grounds by Graham v. R.J. Reynolds Tobacco
Co., 857 F.3d 1169 (11th Cir. 2017) (en banc))). Rather, we clarify
that it is ERISA—not Illinois law—that determines the identity of
a plan’s sponsor in a situation such as this.

12a
Appendix A
sponsor. PBGC insists that it was never notified at the
time of Liberty’s bankruptcy in 1992 that the company
was dissolving so that it could lodge an appropriate claim
as a creditor to the bankrupt corporate estate and make
provision for protecting retirees’ future benefit payments.
The government agency has no record of any such
communications and the bankruptcy court file that might
contain the answer no longer exists. And the Companies
point to no provision of ERISA that contemplates a
plan without a sponsor—certainly, no provision that
contemplates a plan continuing to operate and pay out
pension benefits for twenty years after the purported
dissolution of its sponsor while apparently failing to meet
its notification requirements to PBGC. Ruling for the
Companies would mean holding that an extant pension
plan may be left without a sponsor for decades, which
could have vast ripple effects across even unrelated
provisions of ERISA. See, e.g., 29 U.S.C. § 1082(c)(4)(A)(ii)
(naming a plan’s sponsor as one party that may perfect a
security interest as part of a minimum-funding waiver);
§ 1083(c)(2)(D)(vi)(I) (requiring a plan’s sponsor to use
certain segment rates in determining waiver amortization
installments). The implication that an ERISA plan may
function without a sponsor risks chaos by muddying the
meaning of these sections and others that depend on
an ascertainable sponsor. We decline the Companies’
invitation to create this uncertainty in ERISA law.
Because we craft this common-law rule to conclude
that Liberty remained the Plan’s sponsor until the
execution of the 2012 agreement, we do not reach the
parties’ other arguments or the district court’s other
findings.

13a
Appendix A
IV
We hold that—under the particular circumstances
presented here, and mindful of ERISA’s scheme and
protectionist goals—the Companies owned by Joseph
Wortley are liable for the Plan’s termination liabilities
notwithstanding Liberty’s apparent dissolution under
Illinois law. The judgment of the district court is
AFFIRMED.

14a
B THE UNITED
APPENDIX B —Appendix
ORDER OF
STATES DISTRICT COURT FOR THE SOUTHERN
DISTRICT OF FLORIDA, DATED
NOVEMBER 22, 2019
UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF FLORIDA
CASE NO. 18-CV-81009-ROSENBERG/REINHART
PENSION BENEFIT GUARANTY CORPORATION,
Plaintiff,
v.
20 SE 3RD ST LLC, et al.,
Defendants.
November 22, 2019, Decided
November 22, 2019, Entered on Docket
ORDER GRANTING PLAINTIFF’S MOTION FOR
PARTIAL SUMMARY JUDGMENT, GRANTING
PLAINTIFF’S MOTION FOR SUMMARY
JUDGMENT AS TO THE AFFIRMATIVE
DEFENSES, DENYING DEFENDANTS’ MOTION
FOR SUMMARY JUDGMENT, AND DENYING
DEFENDANTS’ MOTION IN LIMINE
This matter is before the Court on Plaintiff’s Motion
for Partial Summary Judgment [DE 114], Defendants’
Motion for Summary Judgment [DE 112], Plaintiff’s

15a
Appendix B
Motion for Summary Judgment as to Affirmative Defenses
[DE 152], and Defendants’ Motion in Limine [DE 116]. The
Motions have been fully briefed. For the reasons set forth
below, Plaintiff’s Motions are granted and Defendants’
Motions are denied.
I. BACKGROUND AND INTRODUCTION
This is a case about delay. When a company offers its
employees a pension plan, certain federal requirements
attach to the plan. One of those requirements is that
in the event the company ceases to do business (or
dissolves), the company must notify the Pension Benefit
Guarantee Corporation—the Plaintiff in this case.
Plaintiff is a government-sponsored agency that insures
and administers pension plans for companies that have
ceased to do business. In 1991, a company offering a
pension plan—Liberty Lighting—began the process
of liquidating and dissolving. Plaintiff brought this suit
on the premise that Liberty Lighting never informed
the Plaintiff of Liberty’s dissolution. During the 1990s,
Liberty Lighting finished its dissolution proceedings
and the owner of Liberty Lighting, Mr. Joseph Wortley,
went through a personal bankruptcy. During that time,
and throughout the early 2000s, pensioners continued to
collect pension payments, but the pension funds dwindled.
Finally, in 2012, Plaintiff became aware of Liberty
Lighting’s dissolution in the 1990s. By the time Plaintiff
learned of Liberty’s dissolution, however, the funds in the
pension were completely depleted. The Defendants before
the Court are a collection of companies that Mr. Wortley
owned when the pension plan terminated in 2012.

16a
Appendix B
The delay in this case is extreme. Twenty-one years
passed from the time Liberty Lighting began to dissolve
to the time its pension fund was depleted. Although it is
unclear whether Liberty Lighting notified Plaintiff of
its dissolution, someone must bear the cost of the delay
of Plaintiff’s takeover of the pension. If Defendants
prevail, the costs associated with the delayed wind-up of
the Liberty pension will be borne by active companies in
the marketplace that pay pension insurance premiums to
Plaintiff. If Plaintiff prevails, the costs associated with
the delayed wind-up will be borne by non-parties who had
very little, if any, connection to Liberty Lighting, as well
as Mr. Wortley who, from his perspective, attempted to
put Liberty Lighting behind him via bankruptcy many
years ago. In all candor to the parties, the Court has found
this to be a difficult case. The Court does not believe that
a delay of twenty-one years was contemplated when the
applicable federal laws were enacted. Nonetheless, the
Court ultimately concludes that federal law compels it to
enter summary judgment in favor of the Plaintiff.
II. SUMMARY JUDGMENT STANDARD
Summary judgment is appropriate if “the movant
shows that there is no genuine dispute as to any material
fact and the movant is entitled to judgment as a matter
of law.” Fed. R. Civ. P. 56(a). The existence of a factual
dispute is not by itself sufficient grounds to defeat a motion
for summary judgment; rather, “the requirement is that
there be no genuine issue of material fact.” Anderson
v. Liberty Lobby, Inc., 477 U.S. 242, 247-48, 106 S. Ct.
2505, 91 L. Ed. 2d 202 (1986). A dispute is genuine if “a

17a
Appendix B
reasonable trier of fact could return judgment for the
non-moving party.” Miccosukee Tribe of Indians of Fla. v.
United States, 516 F.3d 1235, 1243 (11th Cir. 2008) (citing
Anderson, 477 U.S. at 247-48). A fact is material if “it
would affect the outcome of the suit under the governing
law.” Id. (citing Anderson, 477 U.S. at 247-48).
In deciding a summary judgment motion, the Court
views the facts in the light most favorable to the nonmoving party and draws all reasonable inferences in
that party’s favor. See Davis v. Williams, 451 F.3d 759,
763 (11th Cir. 2006). The Court does not weigh conflicting
evidence. See Skop v. City of Atlanta, 485 F.3d 1130, 1140
(11th Cir. 2007). Thus, upon discovering a genuine dispute
of material fact, the Court must deny summary judgment.
See id.
III. FACTS
In 1989, Liberty Lighting Company, Inc. became
the sponsor and administrator of a pension plan. DE 115
at 1. That plan was subject to federal law and federal
regulations: The Employee Retirement Income Security
Act (“ERISA”). At some point between 1989 and 1991,
Liberty Lighting experienced business problems
significant enough to force it into bankruptcy. DE 113 at 2.
After bankruptcy, Liberty Lighting was administratively
dissolved by the State of Illinois in 1992. Id.
ERISA requires companies that maintain pensions
to notify the Plaintiff if a pension plan is at risk for
termination because Plaintiff administers pension plans

18a
Appendix B
for companies that have ceased to do business. See 29
U.S.C. § 1302(a). A plan is at risk for termination if the
company administering the plan enters bankruptcy or
dissolves. Id. Although Liberty Lighting became bankrupt
and dissolved, the parties dispute whether Liberty
Lighting ever notified Plaintiff of the same. For its part,
Plaintiff contends that Liberty Lighting never sent the
required notice. DE 134-9. For their part, Defendants
contend that “nobody . . . knows if this is actually true;
too much time has passed.” DE 113 at 3. In any event, it
is undisputed that Liberty Lighting did not terminate its
pension plan liability pursuant to ERISA or otherwise
resolve its obligation to pass the administration of the
plan to Plaintiff. Instead, time passed.
In 1993, the sole owner of Liberty Lighting, Mr.
Wortley, filed for personal bankruptcy. DE 113 at 3.
Mr. Wortley’s assets (which were surrendered to the
bankruptcy court) included Mr. Wortley’s Liberty
Lighting stock. Id. The bankruptcy court issued its final
decree in 1998. Id. Mr. Wortley’s Liberty Lighting stock
was not sold during the bankruptcy and was instead “fully
administered” property. DE 115 at 5.
During Mr. Wortley’s bankruptcy and in the years
that followed, various pension plan documents were
executed by Liberty Lighting and Mr. Wortley. In 1994,
Mr. Wortley executed an amendment to the plan on behalf
of Liberty Lighting. Id. at 2.1 In 2002, Mr. Wortley filed a
1. Although Defendants dispute the effective date of the
amendment, Defendants do not dispute the date upon which the
amendment was executed. DE 138 at 2.

19a
Appendix B
Department of Labor pension plan benefit form on behalf
of Liberty Lighting. Id. at 2-3. In 2003, Mr. Wortley sent
a letter on Liberty Lighting letterhead to a consulting
organization regarding the benefits of the pension plan.
Id. In 2004, Liberty Lighting entered into an Investment
Management Agreement with a bank to manage the assets
of the pension plan. Id. at 3. That agreement was signed
by Mr. Wortley. Id.
In 2012, the pension plan ran out of money and the bank
administering the pension payments informed Plaintiff of
the same. See DE 134-2; 134-9. After communications and
negotiations between Plaintiff and Mr. Wortley, Liberty
Lighting’s pension plan was terminated and Plaintiff
took over the administration of pension benefits. DE 115
at 3-4. The date of termination, an important date, was
July 31, 2012. Id.
Plaintiff subsequently filed the suit before this Court.
Plaintiff did not file suit against Liberty Lighting, a longdissolved entity with no assets. Instead, Plaintiff filed
suit against Mr. Wortley and against various companies
in which Mr. Wortley held an ownership interest on the
date of plan termination, July 31, 2012. Defendants filed
a motion to dismiss, and the Court referred the motion to
the Honorable Magistrate Judge Bruce E. Reinhart for
a Report and Recommendation. Defendants argued that
Liberty Lighting could not be responsible for the pension
plan in 2012 because of its earlier dissolution. In his Report,
Judge Reinhart disagreed. Judge Reinhart concluded that
ERISA was silent on the impact of corporate dissolution,
that it was the responsibility of the federal courts to create

20a
Appendix B
common law on issues where ERISA was silent, and that
the appropriate common law, consistent with the purposes
of ERISA, was that Liberty Lighting’s dissolution did
not have the effect of removing Liberty Lighting from its
status as the sponsor of an ERISA-governed pension plan.
DE 86. This Court agreed and adopted Judge Reinhart’s
recommendation over Defendants’ objections. DE 120.
The parties subsequently briefed the cross motions for
summary judgment before the Court, again arguing the
legal significance of Liberty Lighting’s dissolution. The
issue is ripe for the Court’s decision.
IV. LEGAL ANALYSIS AND DISCUSSION
Plaintiff has moved for partial summary judgment,
arguing that it is entitled to judgment as a matter of law
against some of the Defendants in this case. 2 Plaintiff’s
position is that ERISA imposes pension plan termination
liability on the Defendant companies owned by Mr.
Wortley on the day the pension plan was terminated
in 2012. Defendants filed a cross motion for summary
2. The Defendants that are the subject of Plaintiff’s Motion
for Partial Summary Judgment are: Liberty Analytical Corp.;
Bedford Materials Co., Inc.; Liberty Properties at Carey, LLC;
Liberty Properties at Bedford, LLC; Buffalo Power Electronics
Center, Inc.; Liberty Polyglas, Inc.; Liberty Associates, LC;
50509 Marine, LLC; AMH Government Services, LLC; American
Marine Holdings, LLC; Baja Marine, Inc.; Donzi Marine, LLC;
Fountain Dealers Factory Super Store, Inc.; Fountain Powerboat
Industries, Inc.; Fountain Powerboats, LLC; Liberty Acquisition
FPB, LLC; Palmetto Park Financial, LLC; Pro-Line Boats, LLC;
and Pro-Line of North Carolina, Inc.

21a
Appendix B
judgment, arguing that the same companies cannot be
held liable as a matter of law.
When a pension plan is terminated, ERISA imposes
liability on certain parties pursuant to 29 U.S.C. § 1362.
The date ERISA utilizes to impose liability is the date
of plan termination (here July 31, 2012), 3 and the parties
that are subject to liability are the contributing sponsor
of the plan or a member of a contributing sponsor’s
controlled group:
In any case in which a single-employer plan
is terminated in a distress termination under
section 1341(c) of this title or a termination
otherwise instituted by the corporation under
section 1342 of this title, any person who is, on
the termination date, a contributing sponsor
of the plan or a member of such a contributing
sponsor’s controlled group shall incur liability
under this section. The liability under this
section of all such persons shall be joint and
several.
§ 1362(a). It is undisputed that the contributing sponsor
of the pension plan in this case was historically Liberty
Lighting Company, Inc. DE 115 at 1. Liberty Lighting
became the contributing sponsor as early as 1989. Id.
What the parties dispute is: (A) whether Liberty Lighting
could be considered the contributing sponsor as of the
3. The day before the date of termination is used in some
calculations. 29 C.F.R. § 4007.13(g).

22a
Appendix B
date of plan termination in 2012 and (B) the application
of ERISA liability to “member[s] of [the] contributing
sponsor’s controlled group.” Each dispute is considered in
turn before the court turns to (C) Defendants’ affirmative
defenses and motion in limine.
A. Liberty Lighting’s Role as the Pension Plan’s
Contributing Sponsor
There is no reasonable inference from the record
evidence that any entity or person other than Liberty
Lighting was ever the pension plan’s contributing
sponsor. Defendants admit that Liberty Lighting was
the contributing sponsor in 1989. DE 138 at 2. There is no
record evidence that Liberty Lighting ever transferred
its responsibilities under the plan to some other entity or
person, was otherwise relieved of its responsibilities, or
somehow ceased to be the contributing sponsor. Instead,
record evidence confirms Liberty Lighting’s continuing
role as the contributing sponsor. For example, Liberty
Lighting executed documents in connection with the plan
in 1994, 2002, 2003, 2004, and 2012. DE 11 at 2-4.
Defendants argue that Liberty Lighting’s dissolution
under state law had the effect of removing Liberty
Lighting from the ambit of contributing sponsor liability
under ERISA. It is undisputed that in 1992 Liberty
Lighting was dissolved under Illinois law. DE 113 at 3.
Defendants cite to no ERISA provision, federal law, or
federal case for the proposition that a contributing sponsor
can cease to be a contributing sponsor by operation of state
law. And while it is true that federal law defers to the law

23a
Appendix B
of the state of incorporation to assess matters of corporate
existence, 4 Plaintiff does not seek any relief against
Liberty Lighting. Liberty Lighting is not a Defendant in
this case—Plaintiff does not seek final judgment against
the company due to its status as the ERISA contributing
sponsor. For these reasons, the Court concludes that (1)
under the clear and unambiguous terms of ERISA Liberty
Lighting was the contributing sponsor of the plan as of
the date of plan termination in 2012 and (2) Defendants
have provided no relevant legal authority to the contrary.
Plaintiff’s Motion for Partial Summary Judgment is
therefore granted on this basis.
In the alternative, ERISA is silent on the issue of
whether dissolution under state law can affect an entity’s
status as a contributing sponsor. As this Court concluded
at the motion to dismiss stage, however, “the federal
courts are to develop a ‘federal common law of rights
and obligations under ERISA-regulated plans.’” Arnold
v. Life Ins. Co. of N. Am., 894 F.2d 1566, 1567 (11th Cir.
1990) (quoting Firestone Tire & Rubber Co. v. Bruch, 489
U.S. 101, 110, 109 S. Ct. 948, 103 L. Ed. 2d 80 (1989)). In
deciding whether to adopt a federal common law rule, a
court “must examine whether the rule, if adopted, would
further ERISA’s scheme and goals.” Horton v. Reliance
Standard Life Ins. Co., 141 F.3d 1038, 1041 (11th Cir.
1998). Here, ERISA’s central goal is the protection
of the interests of pension beneficiaries. Id. Applying
these principles, this Court previously ruled “that the
4. E.g., Chicago Title & Tr. Co. v. Forty-One Thirty-Six
Wilcox Bldg. Corp., 302 U.S. 120, 124-25, 58 S. Ct. 125, 82 L. Ed.
147 (1937).

24a
Appendix B
dissolution of Liberty Lighting under state law did not
terminate Liberty Lighting’s status under ERISA as
a contributing sponsor of the Plan, nor did it relieve
Liberty Lighting of the obligations attendant to being a
contributing sponsor.” DE 86 at 14; DE 120. Upon review
of the summary judgment record, the Court can see no
reason to alter its position. 5
Also in the alternative, the Court concludes that
Illinois law does not bar this Court from finding that
Liberty Lighting was the plan’s contributing sponsor in
2012. Illinois dissolution law permits a dissolved company
to carry on in a manner necessary to wind up its affairs
and, pursuant to Liberty Lighting’s termination of the
plan in 2012, Liberty Lighting still had ERISA-based
affairs that needed to be wound up in 2012. See 805 Ill.
Comp. Stat. 5/12.30. Indeed, Mr. Wortley’s execution
of pension documents over the course of many years
after Liberty Lighting’s dissolution exemplifies the ongoing need for Liberty Lighting to wind up its pension
obligations. Somebody had to administer the pension, and
there was no one else to do so. These alternative bases
support granting Plaintiff’s Motion for Partial Summary
Judgment on the issue that Liberty Lighting could be
considered the contributing sponsor as of the date of plan
termination in 2012.
The Court’s decision may be more difficult if Plaintiff
had sought relief against Liberty Lighting as an entity.
5. The Court adopts and incorporates herein the analysis
and reasoning of Judge Reinhart that was adopted by this Court.

25a
Appendix B
Liberty Lighting ceased to exist under state law and
federal law respects the rights of states to define corporate
existence. But here, the Court’s decision is a narrow one.
The Court holds only that for the purposes of a federal,
ERISA-focused application of ERISA defined terms (such
as a contributing sponsor), a state-law based dissolution
does not disturb an entity’s federal, ERISA contributingsponsor designation. To hold otherwise would permit
contributing sponsors to circumvent the requirements of
ERISA. ERISA provides for the orderly termination of a
contributing sponsor’s liability, but if state law dissolution
also terminated a sponsor’s ERISA liability an entity
could dissolve, not notify Plaintiff of the dissolution, and
thereby avoid all ERISA-based liability. That is exactly
what is alleged to have happened in this case.
Defendants’ position also cannot be squared with
ERISA as a whole. The ramification of Defendants’
position is that nobody was responsible for the pension
plan; not Liberty Lighting, because it dissolved; not
Mr. Wortley, because he went through bankruptcy; and
not Plaintiff, because it never took control of the plan.6
But ERISA does not allow pension plans to exist in a
state of limbo, devoid of any caretaker. A plan trustee’s
obligations are extinguished only when he or she resigns
in accordance with the applicable plan provisions and
makes arrangements—e.g., through the appointment of
a successor—for the continued management of the plan.
6. Even if Liberty Lighting did send Plaintiff notice of its
dissolution and the notice was somehow lost in transit, Liberty
Lighting would still have had the burden to follow-up with Plaintiff
to ensure that the plan was properly cared for.

26a
Appendix B
Chambers v. Kaleidoscope, Inc. Profit Sharing Plan &
Trust, 650 F. Supp. 359, 369 (N.D. Ga. 1986); Pension
Benefit Guaranty Corp. v. Greene, 570 F. Supp. 1483
(W.D. Pa. 1983); Freund v. Marshall & Ilsley Bank, 485
F. Supp. 629 (W.D. Wis. 1979). For all of the reasons
set forth above, Liberty Lighting was the contributing
sponsor of the pension plan on the date of plan termination,
and Plaintiff’s Motion for Partial Summary Judgment is
granted on this basis.
The Bankruptcy of Liberty Lighting’s Sole Owner
The Court addresses one other argument brought by
Defendants that is not tied directly to Liberty Lighting.
Defendants argue that the owner of Liberty Lighting’s
personal bankruptcy (Mr. Wortley) resulted in the stock
of Liberty Lighting no longer being owned by Mr. Wortley
in 1997. Thus, Defendants argue, there could be no
ownership of Liberty Lighting, by Mr. Wortley, in 2012.
That argument is without merit. Mr. Wortley’s stock was
officially abandoned by the bankruptcy trustee. DE 134
at 3; 115-16 at 4. Accordingly, the Liberty Lighting stock
was returned to Mr. Wortley upon the conclusion of his
bankruptcy. See 11 U.S.C. § 554; In re Wright, 566 B.R.
457, 462 (6th Cir. BAP 2017) (“The plain language of the
statute unambiguously states that if an asset was property
scheduled [as in the instant case] and not administered by
the trustee [as in the instant case], upon closing the case,
the asset is abandoned as a matter of law.”).
Relatedly, Defendants contend that the stock was
“destroyed” prior to the stock’s post-bankruptcy return

27a
Appendix B
to Mr. Wortley under Illinois law, but for this proposition
Defendants rely upon a single case: Shute v. Chambers, 142
Ill. App. 3d 948, 953, 492 N.E.2d 528, 97 Ill. Dec. 92 (1986).
Shute, however, simply alludes to the general proposition
(citing a source from 1938) that after dissolution an
entity will no longer possess assets—its assets will be
distributed to creditors or stockholders.7 Thus, the Court
can see no basis to conclude that the stock was somehow
“destroyed” and, as a result, was not returned to Mr.
Wortley at the conclusion of his bankruptcy.
B. The ERISA Liability of the “Controlled Group”
The second main area of dispute between the parties
is whether ERISA-based liability should attach to the
Defendants under the “controlled group” provision.
ERISA imposes pension plan termination liability not
only upon the contributing sponsor of a plan, but also
upon “member[s] of [the] contributing sponsor’s controlled
group” as of the date of plan termination. 29 U.S.C. §
1362. The controlled group is a defined term which means:
“in connection with any person, a group consisting of
such person and all other persons under common control
with such person.” § 1301(a)(14)(A). Common control is
also a defined term, but the definition of common control
is relegated to Treasury Regulations. § 1301(a)(14)(B).
7. Shute acknowledges that a dissolved corporation will
continue to exist to wind-up its affairs. Id. Shute also arguably
supports Plaintiff’s position—not Defendants’; in Shute, the court
permitted the suit to proceed over the defendant’s dissolution
defense, much like the instant case. Id. at 953-54. As in Shute,
the instant case is not against the corporation that was dissolved.

28a
Appendix B
Treasury Regulations in turn define different instances
of common control. One such definition relevant to this
case is that corporations are under common control if
they are under common ownership. 29 C.F.R. § 4001.3(b)
(2); 26 C.F.R. § 1.414(b)-1; 26 C.F.R. § 1.414(c). A second
definition relevant to this case is that entities are under
common control if they are under common ownership
and are also “trades or businesses.” 26 C.F.R. § 1.414(c)1. 8 These regulations set the threshold for common
ownership at no less than 80%. The undisputed owner of
Liberty Lighting was at all times Mr. Wortley.9 The Court
therefore examines the record evidence of the Defendants
in this case to determine whether those Defendants were
8. A contributing sponsor is automatically a part of the
“controlled group” and thus, need not necessarily be a trade or
business. 29 U.S.C. § 1301(a)(13)-(14) (stating that a controlled
group means, in connection with any contributing sponsor, a
group consisting of the contributing sponsor and all other persons
under common control with the contributing sponsor).
9. Defendants admit that Mr. Wortley was the sole owner
of Liberty Lighting prior to the company’s bankruptcy, and Mr.
Wortley disclosed in bankruptcy that he was the 100% owner
of Liberty Lighting. As previously discussed, Defendants’
contestation of the ownership issue is limited to the proposition
that the dissolution of Liberty Lighting and the bankruptcy of
Mr. Wortley had the effect of removing Mr. Wortley and Liberty
Lighting from the ambit of ERISA liability. The Court has rejected
both of those arguments. To be sure, Mr. Wortley’s Liberty
Lighting stock in 2012 would have been valueless, the company
would have had no assets, and Liberty Lighting would have been
unable, under Illinois law, to conduct any business (or to be sued),
but under Illinois law a dissolved company may take any necessary
action to wind-up its affairs. See 805 Ill. Comp. Stat. 5/12.30.

29a
Appendix B
under common ownership with Mr. Wortley at the time
of plan termination.
Liberty Analytical Corporation
Defendants have admitted that Liberty Analytical was
an operating business on the date of plan termination, that
it was a trade or business, and that it was entirely owned
by Mr. Wortley. DE 138 at 4. Thus, Defendant Liberty
Analytical was a member of the plan’s contributing
sponsor control group on the date of plan termination,
and Plaintiff is entitled to partial summary judgment as
to this Defendant.
Bedford Materials Company, Inc.
Defendants have admitted that Bedford Materials
was an operating business on the date of plan termination,
that it was a trade or business, and that it was at least
82% owned by Mr. Wortley. Id. Thus, Defendant Bedford
Materials was a member of the plan’s contributing
sponsor control group on the date of plan termination,
and Plaintiff is entitled to partial summary judgment as
to this Defendant.
Liberty Properties at Carey and Liberty Properties
at Bedford
Defenda nt s have a d m itt ed t hat bot h of t he
aforementioned companies are entirely owned by Mr.
Wortley and that, as of the date of plan termination, each
of the companies owned real property occupied by another

30a
Appendix B
member of the controlled group. Id. at 6-7. Courts have
unanimously held that the leasing of property to a person
under common control is a “trade or business.”10 Thus,
both of the Liberty Property Defendants were members
of the plan’s contributing sponsor control group on the
date of plan termination, and Plaintiff is entitled to partial
summary judgment as to both Defendants.
Buffalo Power Electronics Center, Inc.
Defendants have admitted that Buffalo Power was an
operating business on the date of plan termination, that it
was a trade or business, and that it was entirely owned by
Mr. Wortley. Id. at 7-8. Thus, Defendant Buffalo Power was
a member of the plan’s contributing sponsor control group
on the date of plan termination, and Plaintiff is entitled to
partial summary judgment as to this Defendant.
Liberty Polyglas, Inc.
Defendants have admitted that Liberty Polyglas was
an operating business on the date of plan termination,
that it was a trade or business, and that it was at owned
by Mr. Wortley through marriage. Id. Thus, Defendant
Liberty Polyglas was a member of the plan’s contributing
sponsor control group on the date of plan termination,
and Plaintiff is entitled to partial summary judgment as
to this Defendant.
10. E.g., Pension Benefit Guaranty Corp. v. Findlay, 902
F.3d 597, 607 (6th Cir. 2018); Cent. States Se. & Sw. Areas Pension
Fund v. Messina Prods., LLC, 706 F.3d 874, 882 (7th Cir. 2013).

31a
Appendix B
Liberty Associates, LC
Defendants have admitted that Liberty Associates
was an operating business on the date of plan termination,
that it was a trade or business, and that it was entirely
owned by Mr. Wortley. Id. at 8-9. Thus, Defendant Liberty
Associates was a member of the plan’s contributing
sponsor control group on the date of plan termination,
and Plaintiff is entitled to partial summary judgment as
to this Defendant.
The Marine Companies
Defendants have admitted that a large list of
companies in the maritime business (see docket entry
115 at page 9, the “Marine Companies”) were operating
businesses on the date of plan termination, that they were
trades or businesses, and that they were entirely owned
by Mr. Wortley. Id. Thus, the Marine Companies were
members of the plan’s contributing sponsor control group
on the date of plan termination, and Plaintiff is entitled to
partial summary judgment as to these Defendants.
Defendants’ Policy-Based Argument in Defense of
the Controlled Group Defendants
Defendants argue that it is unfair to hold parties
liable in 2012 for events that occurred in the early 1990s—
parties who had no connection to Liberty Lighting. In
response, the Court discusses three points.

32a
Appendix B
First, ERISA affixes the date of liability to the date
of termination. Liberty Lighting and Mr. Wortley could
have pursued termination of the plan in the 1990s, but
neither one chose to do so, regardless of whether or not
Liberty Lighting provided Plaintiff notice of Liberty’s
dissolution. Had Liberty Lighting taken the steps
necessary to terminate the plan in parallel with state
dissolution proceedings, its ERISA-based liability could
have been resolved far, far earlier than 2012.
Second, ERISA affixes liability for common ownership
at 80%. While other parties may be adversely affected
in the present through their close affiliation with Mr.
Wortley, the same could be said of any pension plan
termination when a party is in a close partnership with
an ERISA contributing-sponsor owner. In the abstract,
events could have transpired differently in this case in
a manner adverse to Plaintiff. Theoretically, Plaintiff’s
collectable recovery in 2012 could have been less than
Plaintiff’s collectable recovery in 1991 or 1992. In that
situation, it may well have been Plaintiff’s plea to the
Court that it was unfair to limit its recovery to a controlled
group in 2012.
Third and finally, ERISA imposes liability on
controlled group members (even if it impacts minorityowner third parties) for a good reason. Controlled group
liability ensures that employers “keep up their end of the
deal” by preventing them from fractionalizing their assets
and isolating them from the Plaintiff’s reach. Pension
Benefit Guaranty Corp. v. Findlay Indus., Inc., 902 F.3d
597, 610 (6th Cir. 2018). Indeed, ensuring that employers

33a
Appendix B
keep up their end of the deal is one of the core purposes
of ERISA. Id.
In any event, ERISA is clear on these issues. ERISA
chose the date to affix liability and ERISA chose the
ownership threshold necessary to impact third parties.
Defendants’ policy-based arguments, therefore, are
tantamount to an argument against the plain terms of
ERISA itself.
C. Defendants’ Affirmative Defenses and Motion in
Limine
In Plaintiff’s Motion for Partial Summary Judgment,
Plaintiff did not address Defendants’ affirmative defenses.
Although Plaintiff did eventually address the defenses
in its Reply, the Court concluded that such matters
were better addressed through a motion, response, and
reply. Accordingly, the Court permitted Plaintiff to file
an additional motion for summary judgment specific to
Defendants’ affirmative defenses. Upon review of that
motion, the Court concludes that the motion is granted.
Defendants assert a statute of limitations affirmative
defense, but Defendants do not specify which sovereign’s
affirmative defense it intends to raise. If Defendants
intended to reference Illinois law,11 Plaintiff has not
brought a claim under Illinois law, nor has Plaintiff sued
Liberty Lighting, an Illinois corporation. If Defendants

law.

11. Defendants’ argument in its papers relies upon Illinois

34a
Appendix B
intended to reference federal law, the statute of limitations
for ERISA actions is six years and Plaintiff brought
its action within six years. See 29 U.S.C. § 1303(e)(6);
Pension Benefit Guaranty Corp. v. Don’s Trucking Co.,
308 F. Supp. 2d 680, 682 (E.D. Va. 2003) (holding that
pension termination liability accrues on the date of plan
termination).
Defendants assert a “no duty to notify” affirmative
defense, contending that the summary judg ment
Defendants had no duty to notify Plaintiff of Liberty
Lighting’s dissolution. That is irrelevant. Defendants’
failure to notify Plaintiff is not an element of Plaintiff’s
claims or any defense thereto.
Defendants assert a “waiver” affirmative defense, but
Defendants have premised that defense on the proposition
that Plaintiff’s suit was untimely. DE 136 at 16. That is
incorrect. Plaintiff’s suit was timely. Accordingly, this
affirmative defense is also irrelevant.
Defendants filed a motion in limine, contending
that the follow categories of evidence are irrelevant and
should not be admitted at trial: (1) facts surrounding
Liberty Lighting’s dissolution and duty to notify Plaintiff
of the same, (2) facts surrounding Liberty Lighting’s
bankruptcy, (3) facts pertaining to Mr. Wortley’s execution
of documents on Liberty Lighting’s behalf and on behalf
of the company pension, and (4) various other facts
pertaining to the parties’ dealings. Many of these facts
were relevant enough to be referenced in this Order,
and the remaining facts have at least enough potential

35a
Appendix B
relevance that the Court should address objections to the
same at trial. See Garcia v. Scottsdale Ins. Co., No. 1820509, 2019 U.S. Dist. LEXIS 57879, 2019 WL 1491872, at
*1 (S.D. Fla. Apr. 4, 2019) (noting that motions in limine are
disfavored and questions of admissibility should generally
be dealt with at trial).
For the foregoing reasons, Defendants’ Motion in
Limine is denied and Plaintiff’s Motion for Summary
Judgment as to Defendants’ Affirmative Defenses is
granted.
V. CONCLUSION
For the foregoing reasons, Plaintiff is entitled to
partial summary judgment against each of the Defendants
referenced in footnote 2 of this Order. Nonetheless,
Plaintiff’s Motion is a Motion for Partial Summary
Judgement and, as a result, the Court will not enter
final judgment as to any Defendant (as requested by
Plaintiff) at this time. It is ORDERED AND ADJUDGED
that Plaintiff’s Motion for Partial Summary Judgment
[DE 114] is GRANTED. Defendants’ cross Motion for
Summary Judgment [DE 112] is DENIED for the same
reasons Plaintiff’s Motion is granted. Plaintiff’s Motion
for Summary Judgment on Defendants’ Affirmative
Defenses [DE 152] is GRANTED. Defendants’ Motion in
Limine [DE 116] is DENIED WITHOUT PREJUDICE
for the objections to be re-raised, if necessary, at trial.
The parties are ORDERED to file a notice informing the
Court of the remaining issues in this case within three
business days of the date of rendition of this Order.

36a
Appendix B
DONE and ORDERED in Chambers, West Palm
Beach, Florida, this 22nd day of November, 2019.
/s/ Robin L. Rosenberg
ROBIN L. ROSENBERG
UNITED STATES DISTRICT JUDGE

37a
AppendixOF
C REHEARING OF
APPENDIX C — DENIAL
THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT, FILED
JANUARY 21, 2021
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-14968-AA
PENSION BENEFIT GUARANTY CORPORATION,
Plaintiff-Appellee,
versus
20 SE 3RD ST LLC, et al.,
Defendants,
50509 MARINE LLC, AMH GOVERNMENT
SERVICES, LLC, AMERICAN MARINE
HOLDINGS, LLC, BAJA MARINE, INC., BEDFORD
MATERIALS COMPANY, INC., BUFFALO
POWER ELECTRONICS CENTER, INC., DONZI
MARINE, LLC, FOUNTAIN DEALERS FACTORY
SUPER STORE, INC., FOUNTAIN POWERBOAT
INDUSTRIES, INC., FOUNTAIN POWERBOATS,
LLC, LIBERTY ACQUISITIONS, FPB, LLC,
LIBERTY ANALYTICAL CORPORATION,
LIBERTY ASSOCIATES, LC, LIBERTY
POLYGLASS, INC., LIBERTY PROPERTIES AT
BEDFORD, LLC, LIBERTY PROPERTIES AT
CAREY, LLC, LIBERTY PARK FINANCIAL, LLC,

38a
Appendix C
PRO-LINE BOATS, LLC, PRO-LINE
OF NORTH CAROLINA, INC.,
Defendants-Appellants.
Appeal from the United States District Court
for the Southern District of Florida
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC
BEFORE: MARTIN, ROSENBAUM, and TALLMAN,*
Circuit Judges.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED,
no judge in regular active service on the Court having
requested that the Court be polled on rehearing en banc.
(FRAP 35) The Petition for Rehearing En Banc is also
treated as a Petition for Rehearing before the panel and
is DENIED. (FRAP 35, IOP2)

* The Honorable Richard C. Tallman, Circuit Judge for the
United States Court of Appeals for the Ninth Circuit, sitting by
designation.

39a
D PROVISIONS
APPENDIX D — Appendix
STATUTORY
26 U.S.C.A. § 1563, I.R.C. § 1563
§ 1563. Definitions and special rules
(a) Controlled group of corporations.—For purposes
of this part, the term “controlled group of corporations”
means any group of—
(1) Parent-subsidiary controlled group.—One or
more chains of corporations connected through stock
ownership with a common parent corporation if—
(A) stock possessing at least 80 percent of the
total combined voting power of all classes of
stock entitled to vote or at least 80 percent
of the total value of shares of all classes of
stock of each of the corporations, except the
common parent corporation, is owned (within
the meaning of subsection (d)(1)) by one or more
of the other corporations; and
(B) the common parent corporation owns
(within the meaning of subsection (d)(1)) stock
possessing at least 80 percent of the total
combined voting power of all classes of stock
entitled to vote or at least 80 percent of the
total value of shares of all classes of stock of at
least one of the other corporations, excluding,
in computing such voting power or value, stock
owned directly by such other corporations.

40a
Appendix D
(2) Brother-sister controlled group.—T wo or
more corporations if 5 or fewer persons who are
individuals, estates, or trusts own (within the
meaning of subsection (d)(2)) stock possessing more
than 50 percent of the total combined voting power
of all classes of stock entitled to vote or more than
50 percent of the total value of shares of all classes
of stock of each corporation, taking into account the
stock ownership of each such person only to the extent
such stock ownership is identical with respect to each
such corporation.
(3) Combined group.—Three or more corporations
each of which is a member of a group of corporations
described in paragraph (1) or (2), and one of which—
(A) is a common parent corporation included in
a group of corporations described in paragraph
(1), and also
(B) is included in a group of corporations
described in paragraph (2).
(4) Certain insurance companies.—Two or more
insurance companies subject to taxation under
section 801 which are members of a controlled group
of corporations described in paragraph (1), (2), or
(3). Such insurance companies shall be treated as
a controlled group of corporations separate from
any other corporations which are members of
the controlled group of corporations described in
paragraph (1), (2), or (3).

41a
Appendix D
(b) Component member.—
(1) General rule.—For purposes of this part, a
corporation is a component member of a controlled
group of corporations on a December 31 of any taxable
year (and with respect to the taxable year which
includes such December 31) if such corporation—
(A) is a member of such controlled group of
corporations on the December 31 included in
such year and is not treated as an excluded
member under paragraph (2), or
(B) is not a member of such controlled group
of corporations on the December 31 included
in such year but is treated as an additional
member under paragraph (3).
(2) Excluded members.—A corporation which is
a member of a controlled group of corporations on
December 31 of any taxable year shall be treated as
an excluded member of such group for the taxable
year including such December 31 if such corporation—
(A) is a member of such group for less than onehalf the number of days in such taxable year
which precede such December 31,
(B) is exempt from taxation under section 501(a)
(except a corporation which is subject to tax on
its unrelated business taxable income under
section 511) for such taxable year,

42a
Appendix D
(C) is a foreign corporation subject to tax under
section 881 for such taxable year,
(D) is an insurance company subject to taxation
under section 801 (other than an insurance
company which is a member of a controlled
group described in subsection (a)(4)), or
(E) is a franchised corporation, as defined in
subsection (f)(4).
(3) Additional members.—A corporation which—
(A) was a member of a controlled group of
corporations at any time during a calendar year,
(B) is not a member of such group on December
31 of such calendar year, and
(C) is not described, with respect to such
group, in subparagraph (B), (C), (D), or (E) of
paragraph (2),
shall be treated as an additional member of such
group on December 31 for its taxable year including
such December 31 if it was a member of such group
for one-half (or more) of the number of days in such
taxable year which precede such December 31.
(4) Overlapping groups.—If a corporation is a
component member of more than one controlled group
of corporations with respect to any taxable year, such

43a
Appendix D
corporation shall be treated as a component member
of only one controlled group. The determination as to
the group of which such corporation is a component
member shall be made under regulations prescribed
by the Secretary which are consistent with the
purposes of this part.
(c) Certain stock excluded.—
(1) General rule.—For purposes of this part, the term
“stock” does not include—
(A) nonvoting stock which is limited and
preferred as to dividends,
(B) treasury stock, and
(C) stock which is treated as “excluded stock”
under paragraph (2).
(2) Stock treated as “excluded stock”.—
(A) Parent-subsidiary controlled group.—For
purposes of subsection (a)(1), if a corporation
(referred to in this paragraph as “parent
corporation”) owns (within the meaning of
subsections (d)(1) and (e)(4)), 50 percent or
more of the total combined voting power of all
classes of stock entitled to vote or 50 percent or
more of the total value of shares of all classes
of stock in another corporation (referred to in
this paragraph as “subsidiary corporation”), the

44a
Appendix D
following stock of the subsidiary corporation
shall be treated as excluded stock—
(i) stock in the subsidiary corporation
held by a trust which is part of a
plan of deferred compensation for
the benefit of the employees of the
parent corporation or the subsidiary
corporation,
(ii) stock in the subsidiary corporation
owned by an individual (within the
meaning of subsection (d)(2)) who is
a principal stockholder or officer of
the parent corporation. For purposes
of this clause, the term “principal
stockholder” of a corporation means
an individual who owns (within the
meaning of subsection (d)(2)) 5 percent
or more of the total combined voting
power of all classes of stock entitled to
vote or 5 percent or more of the total
value of shares of all classes of stock
in such corporation,
(iii) stock in the subsidiary corporation
ow ne d (w it h i n t he me a n i ng of
subsection (d)(2)) by an employee of
the subsidiary corporation if such
stock is subject to conditions which run
in favor of such parent (or subsidiary)
corporation and which substantially

45a
Appendix D
restrict or limit the employee’s right
(or if the employee constructively
owns such stock, the direct owner’s
right) to dispose of such stock, or
(iv) stock in the subsidiary corporation
ow ne d (w it h i n t he me a n i ng of
subsection (d)(2)) by an organization
(other than the parent corporation)
to which section 501 (relating to
certain educational and charitable
organizations which are exempt from
tax) applies and which is controlled
directly or indirectly by the parent
corporation or subsidiary corporation,
by an individual, estate, or trust that
is a principal stockholder (within the
meaning of clause (ii)) of the parent
corporation, by an officer of the parent
corporation, or by any combination
thereof.
(B) Brother-sister controlled group.—For
purposes of subsection (a)(2), if 5 or fewer
persons who are individuals, estates, or trusts
(referred to in this subparagraph as “common
owners”) own (within the meaning of subsection
(d)(2)), 50 percent or more of the total combined
voting power of all classes of stock entitled to
vote or 50 percent or more of the total value of
shares of all classes of stock in a corporation,
the following stock of such corporation shall be
treated as excluded stock—

46a
Appendix D
(i) stock in such corporation held
by an employees’ trust described in
section 401(a) which is exempt from
tax under section 501(a), if such trust
is for the benefit of the employees of
such corporation,
(ii) stock in such corporation owned
(within the meaning of subsection (d)
(2)) by an employee of the corporation
if such stock is subject to conditions
which run in favor of any of such
common owners (or such corporation)
and which substantially restrict
or limit the employee’s right (or if
the employee constructively owns
such st ock , t he d i rec t ow ner ’s
right) to dispose of such stock. If a
condition which limits or restricts
the employee’s right (or the direct
owner’s right) to dispose of such stock
also applies to the stock held by any
of the common owners pursuant to a
bona fide reciprocal stock purchase
arrangement, such condition shall not
be treated as one which restricts or
limits the employee’s right to dispose
of such stock, or
(iii) stock in such corporation owned
(within the meaning of subsection (d)
(2)) by an organization to which section

47a
Appendix D
501 (relating to certain educational
and charitable organizations which
are exempt from tax) applies and
wh ich is cont rol led d i rect ly or
indirectly by such corporation, by
an individual, estate, or trust that is
a principal stockholder (within the
meaning of subparagraph (A)(ii)) of
such corporation, by an officer of such
corporation, or by any combination
thereof.
(d) Rules for determining stock ownership.—
(1) Parent-subsidiary controlled group.—For
purposes of determining whether a corporation is a
member of a parent- subsidiary controlled group of
corporations (within the meaning of subsection (a)(1)),
stock owned by a corporation means—
(A) stock owned directly by such corporation,
and
(B) stock ow ned w ith the application of
paragraphs (1), (2), and (3) of subsection (e).
(2) Brother-sister controlled group.—For purposes
of determining whether a corporation is a member of a
brother-sister controlled group of corporations (within
the meaning of subsection (a)(2)), stock owned by a
person who is an individual, estate, or trust means—

48a
Appendix D
(A) stock owned directly by such person, and
(B) stock ow ned w ith the application of
subsection (e).
(e) Constructive ownership.—
(1) Options.—If any person has an option to acquire
stock, such stock shall be considered as owned by such
person. For purposes of this paragraph, an option to
acquire such an option, and each one of a series of such
options, shall be considered as an option to acquire
such stock.
(2) Attribution from partnerships.—Stock owned,
directly or indirectly, by or for a partnership shall be
considered as owned by any partner having an interest
of 5 percent or more in either the capital or profits of
the partnership in proportion to his interest in capital
or profits, whichever such proportion is the greater.
(3) Attribution from estates or trusts.—
(A) Stock owned, directly or indirectly, by or for
an estate or trust shall be considered as owned
by any beneficiary who has an actuarial interest
of 5 percent or more in such stock, to the extent
of such actuarial interest. For purposes of this
subparagraph, the actuarial interest of each
beneficiary shall be determined by assuming
the maximum exercise of discretion by the
fiduciary in favor of such beneficiary and the

49a
Appendix D
maximum use of such stock to satisfy his rights
as a beneficiary.
(B) Stock owned, directly or indirectly, by or
for any portion of a trust of which a person is
considered the owner under subpart E of part
I of subchapter J (relating to grantors and
others treated as substantial owners) shall be
considered as owned by such person.
(C) This paragraph shall not apply to stock
owned by any employees’ trust described in
section 401(a) which is exempt from tax under
section 501(a).
(4) Attribution from corporations.—Stock owned,
directly or indirectly, by or for a corporation shall be
considered as owned by any person who owns (within
the meaning of subsection (d)) 5 percent or more in
value of its stock in that proportion which the value
of the stock which such person so owns bears to the
value of all the stock in such corporation.
(5) Spouse.—An individual shall be considered as
owning stock in a corporation owned, directly or
indirectly, by or for his spouse (other than a spouse
who is legally separated from the individual under a
decree of divorce whether interlocutory or final, or a
decree of separate maintenance), except in the case
of a corporation with respect to which each of the
following conditions is satisfied for its taxable year—

50a
Appendix D
(A) The individual does not, at any time during
such taxable year, own directly any stock in
such corporation;
(B) The individual is not a director or employee
and does not participate in the management
of such corporation at any time during such
taxable year;
(C) Not more tha n 5 0 percent of such
corporation’s gross income for such taxable year
was derived from royalties, rents, dividends,
interest, and annuities; and
(D) Such stock in such corporation is not, at
any time during such taxable year, subject to
conditions which substantially restrict or limit
the spouse’s right to dispose of such stock
and which run in favor of the individual or his
children who have not attained the age of 21
years.
(6) Child ren , g ra ndchild ren , pa rents , a nd
grandparents.—
(A) Minor children.—An individual shall be
considered as owning stock owned, directly
or indirectly, by or for his children who have
not attained the age of 21 years, and, if the
individual has not attained the age of 21 years,
the stock owned, directly or indirectly, by or
for his parents.

51a
Appendix D
(B) Adult children and grandchildren.—An
individual who owns (within the meaning of
subsection (d)(2), but without regard to this
subparagraph) more than 50 percent of the total
combined voting power of all classes of stock
entitled to vote or more than 50 percent of the
total value of shares of all classes of stock in a
corporation shall be considered as owning the
stock in such corporation owned, directly or
indirectly, by or for his parents, grandparents,
grandchildren, and children who have attained
the age of 21 years.
(C) Adopted child.—For purposes of this
section, a legally adopted child of an individual
shall be treated as a child of such individual by
blood.
(f) Other definitions and rules.—
(1) Employee defined.—For purposes of this section
the term “employee” has the same meaning such term
is given by paragraphs (1) and (2) of section 3121(d).
(2) Operating rules.—
(A) In general.—Except as provided in
subparagraph (B), stock constructively owned
by a person by reason of the application
of paragraph (1), (2), (3), (4), (5), or (6) of
subsection (e) shall, for purposes of applying
such paragraphs, be treated as actually owned
by such person.

52a
Appendix D
(B) Members of family.—Stock constructively
owned by an individual by reason of the
application of paragraph (5) or (6) of subsection
(e) shall not be treated as owned by him for
purposes of again applying such paragraphs in
order to make another the constructive owner
of such stock.
(3) Special rules.—For purposes of this section—
(A) If stock may be considered as owned by a
person under subsection (e)(1) and under any
other paragraph of subsection (e), it shall be
considered as owned by him under subsection
(e)(1).
(B) If stock is owned (within the meaning of
subsection (d)) by two or more persons, such
stock shall be considered as owned by the
person whose ownership of such stock results
in the corporation being a component member
of a controlled group. If by reason of the
preceding sentence, a corporation would (but
for this sentence) become a component member
of two controlled groups, it shall be treated as
a component member of one controlled group.
The determination as to the group of which
such corporation is a component member shall
be made under regulations prescribed by
the Secretary which are consistent with the
purposes of this part.

53a
Appendix D
(C) If stock is owned by a person within the
meaning of subsection (d) and such ownership
results in the corporation being a component
member of a controlled group, such stock
shall not be treated as excluded stock under
subsection (c) (2), if by reason of treating such
stock as excluded stock the result is that such
corporation is not a component member of a
controlled group of corporations.
(4) Franchised corporation.—If—
(A) a parent corporation (as defined in subsection
(c)(2)(A)), or a common owner (as defined in
subsection (c)(2)(B)), of a corporation which is
a member of a controlled group of corporations
is under a duty (arising out of a written
agreement) to sell stock of such corporation
(referred to in this paragraph as “franchised
corporation”) which is franchised to sell the
products of another member, or the common
owner, of such controlled group;
(B) such stock is to be sold to an employee
(or employees) of such franchised corporation
pursuant to a bona fide plan designed to
eliminate the stock ownership of the parent
corporation or of the common owner in the
franchised corporation;
(C) such plan—

54a
Appendix D
(i) provides a reasonable selling price
for such stock, and
(ii) requires that a portion of the
employee’s share of the profits of
such corporation (whether received
as compensation or as a dividend) be
applied to the purchase of such stock
(or the purchase of notes, bonds,
debentures or other similar evidence
of indebtedness of such franchised
corporation held by such parent
corporation or common owner);
(D) such employee (or employees) owns directly
more than 20 percent of the total value of
shares of all classes of stock in such franchised
corporation;
(E) more than 50 percent of the inventory of
such franchised corporation is acquired from
members of the controlled group, the common
owner, or both; and
(F) a l l of t he cond it ion s cont a i ned i n
subparagraphs (A), (B), (C), (D), and (E) have
been met for one-half (or more) of the number
of days preceding the December 31 included
within the taxable year (or if the taxable year
does not include December 31, the last day of
such year) of the franchised corporation,

55a
Appendix D
then such franchised corporation shall be
treated as an excluded member of such group,
under subsection (b)(2), for such taxable year.
(5) Brother-sister controlled group definition for
provisions other than this part.—
(A) In general.—Except as specif ically
provided in an applicable provision, subsection
(a)(2) shall be applied to an applicable provision
as if it read as follows:
“(2) Brother-sister controlled group.—Two or
more corporations if 5 or fewer persons who are
individuals, estates, or trusts own (within the
meaning of subsection (d)(2) stock possessing—
“(A) at least 80 percent of the total
combined voting power of all classes
of stock entitled to vote, or at least 80
percent of the total value of shares of
all classes of stock, of each corporation,
and
“(B) more than 50 percent of the total
combined voting power of all classes
of stock entitled to vote or more
than 50 percent of the total value of
shares of all classes of stock of each
corporation, taking into account
the stock ownership of each such
person only to the extent such stock

56a
Appendix D
ownership is identical with respect to
each such corporation.”
(B) Applicable provision.—For purposes of
this paragraph, an applicable provision is any
provision of law (other than this part) which
incorporates the definition of controlled group
of corporations under subsection (a).

57a
Appendix D
29 U.S.C.A. § 1002
§ 1002. Definitions
For purposes of this subchapter:
***
(16)(A) The term “administrator” means—
(i) the person specifically so designated by the
terms of the instrument under which the plan
is operated;
(ii) if an administrator is not so designated, the
plan sponsor; or
(iii) in the case of a plan for which an
administrator is not designated and a plan
sponsor cannot be identified, such other person
as the Secretary may by regulation prescribe.
(B) The term “plan sponsor” means (i) the employer
in the case of an employee benefit plan established
or maintained by a single employer, (ii) the employee
organization in the case of a plan established or
maintained by an employee organization, (iii) in the
case of a plan established or maintained by two or more
employers or jointly by one or more employers and
one or more employee organizations, the association,
committee, joint board of trustees, or other similar
group of representatives of the parties who establish

58a
Appendix D
or maintain the plan, or (iv) in the case of a pooled
employer plan, the pooled plan provider.
****

59a
Appendix D
29 U.S.C.A. § 1301
§ 1301. Definitions
(a) For purposes of this subchapter, the term—
***
(14) in the case of a single-employer plan—
(A) “controlled group” means, in connection
with any person, a group consisting of such
person and all other persons under common
control with such person;
(B) the determination of whether two or more
persons are under “common control” shall be
made under regulations of the corporation
which are consistent and coextensive with
regulations prescribed for similar purposes
by the Secretary of the Treasury under
subsections (b) and (c) of section 414 of Title
26; and
(C)(i) notwithstanding any other provision of
this subchapter, during any period in which
an individual possesses, directly or indirectly,
the power to direct or cause the direction of
the management and policies of an affected
air carrier of which he was an accountable
owner, whether through the ownership of
voting securities, by contract, or otherwise,

60a
Appendix D
the affected air carrier shall be considered to
be under common control not only with those
persons described in subparagraph (B), but also
with all related persons; and
(ii) for purposes of this subparagraph, the
term—
(I) “affected air carrier” means an air
carrier, as defined in section 40102(a)
(2) of Title 49, that holds a certificate
of public convenience and necessity
under section 41102 of Title 49 for
route number 147, as of November
12, 1991;
(II) “related person” means any person
which was under common control (as
determined under subparagraph
(B)) with an affected air carrier on
October 10, 1991, or any successor to
such related person;
(III) “accountable owner” means any
individual who on October 10, 1991,
owned directly or indirectly through
the application of section 318 of
Title 26 more than 50 percent of the
total voting power of the stock of an
affected air carrier;

61a
Appendix D
(IV) “successor” means any person
that acquires, directly or indirectly
through the application of section 318
of Title 26, more than 50 percent of
the total voting power of the stock of
a related person, more than 50 percent
of the total value of the securities (as
defined in section 1002(20) of this title)
of the related person, more than 50
percent of the total value of the assets
of the related person, or any person
into which such related person shall
be merged or consolidated; and
(V) “individual” means a living human being;
****

62a
Appendix D
26 C.F.R. § 1.414(b)–1, Treas. Reg. § 1.414(b)–1
§ 1.414(b)–1 Controlled group of corporations.
(a) Definition of controlled group of corporations. For
purposes of this section, the term “controlled group of
corporations” has the same meaning as is assigned to the
term in section 1563(a) and the regulations thereunder,
except that (1) the term “controlled group of corporations”
shall not include an “insurance group” described in
section 1563(a)(4), and (2) section 1563(e)(3)(C) (relating
to stock owned by certain employees’ trusts) shall not
apply. For purposes of this section, the term “members
of a controlled group” means two or more corporations
connected through stock ownership described in section
1563(a) (1), (2), or (3), whether or not such corporations
are “component members of a controlled group” within
the meaning of section 1563(b). Two or more corporations
are members of a controlled group at any time such
corporations meet the requirements of section 1563(a) (as
modified by this paragraph). For purposes of this section,
if a corporation is a member of more than one controlled
group of corporations, such corporation shall be treated
as a member of each controlled group.
(b) Single plan adopted by two or more members. If two
or more members of a controlled group of corporations
adopt a single plan for a plan year, then the minimum
funding standard provided in section 412, the tax imposed
by section 4971, and the applicable limitations provided
by section 404(a) shall be determined as if such members
were a single employer. In such a case, the amount of

63a
Appendix D
such items and the allocable portion attributable to each
member shall be determined in the manner provided in
regulations under sections 412, 4971, and 404(a).
(c) Cross reference. For rules relating to the application of
sections 401, 408(k), 410, 411, 415, and 416 with respect to
two or more trades or businesses which are under common
control, see section 414(c) and the regulations thereunder.

64a
Appendix D
26 C.F.R. § 1.414(c)–2, Treas. Reg. § 1.414(c)–2
§ 1.414(c)–2 Two or more trades
or businesses under common control.
(a) In general. For purposes of this section, the term
“two or more trades or businesses under common control”
means any group of trades or businesses which is either
a “parent-subsidiary group of trades or businesses under
common control” as defined in paragraph (b) of this
section, a “brother-sister group of trades or businesses
under common control” as defined in paragraph (c) of this
section, or a “combined group of trades or businesses
under common control” as defined in paragraph (d) of
this section. For purposes of this section and §§ 1.414(c)–3
and 1.414(c)–4, the term “organization” means a sole
proprietorship, a partnership (as defined in section 7701(a)
(2)), a trust, an estate, or a corporation.
(b) Parent-subsidiary group of trades or businesses
under common control—(1) In general. The term
“parent-subsidiary group of trades or businesses
under common control” means one or more chains of
organizations conducting trades or businesses connected
through ownership of a controlling interest with a common
parent organization if—
(i) A controlling interest in each of the organizations,
except the common parent organization, is owned
(directly and with the application of § 1.414(c)–4(b)
(1), relating to options) by one or more of the other
organizations; and

65a
Appendix D
(ii) The common parent organization owns (directly
and with the application of § 1.414(c)–4(b)(1), relating
to options) a controlling interest in at least one of the
other organizations, excluding, in computing such
controlling interest, any direct ownership interest by
such other organizations.
(2) Controlling interest defined—(i) Controlling
interest. For purposes of paragraphs (b) and (c) of
this section, the phrase “controlling interest” means:
(A) In the case of an organization which is a
corporation, ownership of stock possessing at
least 80 percent of total combined voting power
of all classes of stock entitled to vote of such
corporation or at least 80 percent of the total
value of shares of all classes of stock of such
corporation;
(B) In the case of an organization which is
a trust or estate, ownership of an actuarial
interest of at least 80 percent of such trust or
estate;
(C) In the case of an organization which is a
partnership, ownership of at least 80 percent
of the profits interest or capital interest of such
partnership; and
(D) In the case of an organization which is a
sole proprietorship, ownership of such sole
proprietorship.

66a
Appendix D
(ii) Actuarial interest. For purposes of this section,
the actuarial interest of each beneficiary of trust or
estate shall be determined by assuming the maximum
exercise of discretion by the fiduciary in favor of such
beneficiary. The factors and methods prescribed in
§ 20.2031–7 or, for certain prior periods, § 20.2031–7A
(Estate Tax Regulations) for use in ascertaining the
value of an interest in property for estate tax purposes
shall be used for purposes of this subdivision in
determining a beneficiary’s actuarial interest.
(c) Brother-sister group of trades or businesses under
common control—(1) In general. The term “brothersister group of trades or businesses under common
control” means two or more organizations conducting
trades or businesses if (i) the same five or fewer persons
who are individuals, estates, or trusts own (directly
and with the application of § 1.414(c)–4) a controlling
interest in each organization, and (ii) taking into account
the ownership of each such person only to the extent
such ownership is identical with respect to each such
organization, such persons are in effective control of each
organization. The five or fewer persons whose ownership
is considered for purposes of the controlling interest
requirement for each organization must be the same
persons whose ownership is considered for purposes of
the effective control requirement.
(2) Effective control defined. For purposes of this
paragraph, persons are in “effective control” of an
organization if—

67a
Appendix D
(i) In the case of an organization which is a corporation,
such persons own stock possessing more than 50
percent of the total combined voting power of all
classes of stock entitled to vote or more than 50
percent of the total value of shares of all classes of
stock of such corporation;
(ii) In the case of an organization which is a trust
or estate, such persons own an aggregate actuarial
interest of more than 50 percent of such trust or estate;
(iii) In the case of an organization which is a
partnership, such persons own an aggregate of more
than 50 percent of the profits interest or capital
interest of such partnership; and
(iv) In the case of an organization which is a sole
proprietorship, one of such persons owns such sole
proprietorship.
(d) Combined group of trades or businesses under
common control. The term “combined group of trades
or businesses under common control” means any group of
three or more organizations, if (1) each such organization
is a member of either a parent- subsidiary group of trades
or businesses under common control or a brother-sister
group of trades or businesses under common control, and
(2) at least one such organization is the common parent
organization of a parent-subsidiary group of trades or
businesses under common control and is also a member
of a brother-sister group of trades or businesses under
common control.

68a
Appendix D
(e) Examples. The definitions of parent-subsidiary group
of trades or businesses under common control, brothersister group of trades or businesses under common
control, and combined group of trades or businesses
under common control may be illustrated by the following
examples.
Example 1. (a) The A BC partnership owns stock
possessing 80 percent of the total combined voting
power of all classes of stock entitled to voting of S
corporation. ABC partnership is the common parent of
a parent-subsidiary group of trades or businesses under
common control consisting of the ABC partnership and
S Corporation.
(b) Assume the same facts as in (a) and assume further
that S owns 80 percent of the profits interest in the DEF
Partnership. The ABC Partnership is the common parent
of a parent-subsidiary group of trades or businesses under
common control consisting of the ABC Partnership, S
Corporation, and the DEF Partnership. The result would
be the same if the ABC Partnership, rather than S, owned
80 percent of the profits interest in the DEF Partnership.
Example 2. L Corporation owns 80 percent of the only
class of stock of T Corporation, and T, in turn, owns 40
percent of the capital interest in the GHI Partnership.
L also owns 80 percent of the only class of stock of N
Corporation and N, in turn, owns 40 percent of the capital
interest in the GHI Partnership. L is the common parent
of a parent-subsidiary group of trades or businesses
under common control consisting of L Corporation, T
Corporation, N Corporation, and the GHI Partnership.

69a
Appendix D
Example 3. ABC Partnership owns 75 percent of the only
class of stock of X and Y Corporations; X owns all the
remaining stock of Y, and Y owns all the remaining stock
of X. Since interorganization ownership is excluded (that
is, treated as not outstanding) for purposes of determining
whether ABC owns a controlling interest of at least one
of the other organizations, ABC is treated as the owner
of stock possessing 100 percent of the voting power and
value of all classes of stock of X and of Y for purposes of
paragraph (b)(1)(ii) of this section. Therefore, ABC is the
common parent of a parent-subsidiary group of trades or
businesses under common control consisting of the ABC
Partnership, X Corporation, and Y Corporation.
Example 4. Unrelated individuals A, B, C, D, E, and F
own an interest in sole proprietorship A, a capital interest
in the GHI Partnership, and stock of corporations M,
W, X, Y, and Z (each of which has only one class of stock
outstanding) in the following proportions:
ORGANIZATIONS
Individuals
A
B
C
D
E

A

GHI

M

W

X

Y

100% 50% 100% 60% 40% 20%
— 40%
— 15% 40% 50%
—
—
—
— 10% 10%
—
—
— 25%
— 20%
— 10%
—
— 10%
—
100% 100% 100% 100% 100% 100%

Z
60%
30%
10%
—
—
100%

70a
Appendix D
Under these facts the following four brother-sister groups
of trades or businesses under common control exist: GHI,
X and Z; X, Y and Z; W and Y; A and M. In the case of GHI,
X, and Z, for example, A and B together have effective
control of each organization because their combined
identical ownership of GHI, X and Z is greater than 50%.
(A’s identical ownership of GHI, X and Z is 40% because
A owns at least a 40% interest in each organization. B’s
identical ownership of GHI, X and Z is 30% because B owns
at least a 30% interest in each organization.) A and B (the
persons whose ownership is considered for purposes of the
effective control requirement) together own a controlling
interest in each organization because they own at least
80% of the capital interest of partnership GHI and at least
80% of the total combined voting power of corporations X
and Z. Therefore, GHI, X and Z comprise a brother-sister
group of trades or businesses under common control. Y is
not a member of this group because neither the effective
control requirement nor the 80% controlling interest
requirement are met. (The effective control requirement is
not met because A’s and B’s combined identical ownership
in GHI, X, Y and Z (20% for A and 30% for B) does not
exceed 50%. The 80% controlling interest test is not
met because A and B together only own 70% of the total
combined voting power of the stock of Y.) A and M are
not members of this group because B owns no interest in
either organization and A’s ownership of GHI, X and Z,
considered alone, is less than 80%.
Example 5. The outstanding stock of corporations U and
V, which have only one class of stock outstanding, is owned
by the following unrelated individuals:

71a
Appendix D
CORPORATIONS

Individuals
A
B
C
D
E
F
G
H

U
(percent)
12
12
12
12
13
13
13
13
100

V
(percent)
12
12
12
12
13
13
13
13
100

Any group of five of the shareholders will own more than
50 percent of the stock in each corporation, in identical
holdings. However, U and V are not members of a brothersister group of trades or businesses under common control
because at least 80 percent of the stock of each corporation
is not owned by the same five or fewer persons.
Example 6. A, an individual, owns a controlling interest
in ABC Partnership and DEF Partnership. ABC, in
turn, owns a controlling interest in X Corporation. Since
ABC, DEF, and X are each members of either a parentsubsidiary group or a brother- sister group of trades
or businesses under common control, and ABC is the
common parent of a parent-subsidiary group of trades or
businesses under common control consisting of ABC and

72a
Appendix D
X, and also a member of a brother-sister group of trades
or businesses under common control consisting of ABC
and DEF, ABC Partnership, DEF Partnership, and X
Corporation are members of the same combined group of
trades or businesses under common control.

